<html>
<title> - OVERSIGHT OF THE U.S. DEPARTMENT OF TRANSPORTATION'S IMPLEMENTATION OF MAP-21 AND FISCAL YEAR 2015 BUDGET REQUEST FOR SURFACE TRANSPORTATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







OVERSIGHT OF THE U.S. DEPARTMENT OF TRANSPORTATION'S IMPLEMENTATION OF 
 MAP-21 AND FISCAL YEAR 2015 BUDGET REQUEST FOR SURFACE TRANSPORTATION

=======================================================================

                                (113-59)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-049 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
VACANCY

                                  (ii)


                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
HOWARD COBLE, North Carolina         Columbia
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 MICHAEL H. MICHAUD, Maine
SHELLEY MOORE CAPITO, West Virginia  GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            TIMOTHY J. WALZ, Minnesota
ERIC A. ``RICK'' CRAWFORD, Arkansas  STEVE COHEN, Tennessee
LOU BARLETTA, Pennsylvania           ALBIO SIRES, New Jersey
BLAKE FARENTHOLD, Texas              DONNA F. EDWARDS, Maryland
LARRY BUCSHON, Indiana               JANICE HAHN, California
BOB GIBBS, Ohio                      RICHARD M. NOLAN, Minnesota
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
STEVE SOUTHERLAND, II, Florida       DINA TITUS, Nevada
REID J. RIBBLE, Wisconsin, Vice      SEAN PATRICK MALONEY, New York
Chair                                ELIZABETH H. ESTY, Connecticut
STEVE DAINES, Montana                LOIS FRANKEL, Florida
TOM RICE, South Carolina             CHERI BUSTOS, Illinois
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
ROGER WILLIAMS, Texas                  (Ex Officio)
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)


































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Peter M. Rogoff, Acting Under Secretary for Policy, Office 
  of the Secretary, U.S. Department of Transportation............     4
Gregory G. Nadeau, Deputy Administrator, Federal Highway 
  Administration.................................................     4
Therese W. McMillan, Deputy Administrator, Federal Transit 
  Administration.................................................     4
Hon. Anne S. Ferro, Administrator, Federal Motor Carrier Safety 
  Administration.................................................     4
Hon. David Friedman, Acting Administrator, National Highway 
  Traffic Safety Administration..................................     4

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Peter M. Rogoff:

    Prepared statement...........................................    45
    Answers to questions for the record from Hon. Eleanor Holmes 
      Norton, a Delegate in Congress from the District of 
      Columbia...................................................    50
Gregory G. Nadeau:

    Prepared statement...........................................    64
    Answers to questions for the record from the following 
      Representatives:

        Hon. Thomas E. Petri, of Wisconsin.......................    73
        Hon. Sam Graves, of Missouri.............................    75
        Hon. John J. Duncan, Jr., of Tennessee...................    76
        Hon. Grace F. Napolitano, of California..................    76
        Hon. Peter A. DeFazio, of Oregon.........................    78
Therese W. McMillan:

    Prepared statement...........................................    81
    Answers to questions for the record from Hon. John Garamendi, 
      a Representative in Congress from the State of California..    89
Hon. Anne S. Ferro:

    Prepared statement...........................................    90
    Answers to questions for the record from the following 
      Representatives:

        Hon. Thomas E. Petri, of Wisconsin.......................    96
        Hon. Sam Graves, of Missouri.............................   100
Hon. David Friedman:

    Prepared statement...........................................   101
    Answers to questions for the record from the following 
      Representatives:

        Hon. Bill Shuster, of Pennsylvania.......................   106
        Hon. Thomas E. Petri, of Wisconsin.......................   106
        Hon. John J. Duncan, Jr., of Tennessee...................   107

                       SUBMISSIONS FOR THE RECORD

Daphne Izer, founder, Parents Against Tired Truckers, and 
  Christina Mahaney; letter to Hon. Michael E. Michaud, a 
  Representative in Congress from the State of Maine, March 27, 
  2014...........................................................   109
National Congress of American Indians, written testimony.........   111


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
OVERSIGHT OF THE U.S. DEPARTMENT OF TRANSPORTATION'S IMPLEMENTATION OF 
 MAP-21 AND FISCAL YEAR 2015 BUDGET REQUEST FOR SURFACE TRANSPORTATION

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order. Today's 
hearing will focus on oversight of the U.S. Department of 
Transportation's implementation of the Moving Ahead for 
Progress in the 21st Century Act, better known as MAP-21, and 
the President's budget year 2015 request.
    MAP-21 was signed into law by the President on July 6, 
2012, and authorizes the Federal Highway Transit and Highway 
Safety Programs through September 30, 2014. I was pleased to 
hear the Department intends to send a reauthorization proposal 
to Congress some time in the near future. Reauthorizing these 
programs is a priority for the committee, and we look forward 
to reviewing the Department's proposals.
    MAP-21 consolidated many Federal programs that were 
duplicative or were not in the Federal interest. These changes 
provide greater focus on the core national systems, and give 
our non-Federal partners greater flexibility to meet their 
transportation needs.
    MAP-21 made major reforms and improvements to the project 
delivery process. It currently could take almost 14 years for a 
transportation project to be completed if Federal funding is 
involved, which is clearly unacceptable. Some of the MAP-21 
reforms include allowing Federal agencies to review projects 
concurrently, penalties for agencies that don't meet project 
review deadlines, and expanding categorical exclusions for 
projects in the existing right of way, or with limited Federal 
investment. These reforms will help cut bureaucratic red tape 
and quickly deliver the economic and safety benefits of 
transportation projects. The Department has started 
implementing these project delivery provisions, and I look 
forward to discussing their progress.
    MAP-21 also increases transparency and accountability by 
requiring States and transit agencies, in conjunction with 
metropolitan planning organizations, to incorporate performance 
targets into their long-term transportation plans. These 
performance targets will help our non-Federal partners focus 
their limited Federal resources on projects that have the 
greatest benefit.
    MAP-21 also creates a program to provide relief for public 
transportation systems that were affected by a natural disaster 
or catastrophic failure. Previously, transit agencies had to 
work through FEMA to replace equipment or rebuild their systems 
after a disaster. But after Katrina, transit agencies sought an 
emergency program similar to the emergency relief program 
operated by the Federal Highway Administration. This program 
was utilized by the States and communities impacted by 
Hurricane Sandy.
    Numerous trucking safety provisions were included in MAP-
21, which reflects Congress' commitment to keeping truckers and 
the traveling public safe. Federal Motor Carrier Safety 
Administration is tasked with implementing new regulations on 
electronic logging devices, hazardous material safety permits, 
a drug and alcohol clearinghouse for commercial drivers, and 
motor carrier registration requirements related to unsafe 
reincarnated carriers. These regulations will keep drivers 
safe, while maximizing the efficiency of the trucking industry.
    Congress also recognized that new highway safety challenges 
have emerged. The National Highway Traffic Safety 
Administration is required to implement a National Priority 
Safety Program that incentivizes States to pass and enforce 
laws that address important safety issues. The program focuses 
on impaired driving countermeasures, occupant protection, 
motorcycle safety, distracted driving, and graduated drivers 
licensing. These reforms are only part of the sweeping changes 
made in MAP-21.
    I look forward to hearing from the Department on the 
progress it has made implementing the reforms that I have 
highlighted, and others that were included in MAP-21.
    March 5th, the President released his budget year 2015 
request for the Department. The request also included the 
administration's vision for a 4-year, $302 billion surface 
transportation reauthorization bill.
    I look forward to discussing the details of the budget 
request.
    And now I recognize our ranking member, Eleanor Holmes 
Norton, for any opening statements she may wish to make.
    Ms. Norton. Thank you very much, Mr. Chairman. And I thank 
you for this and the continuing series of very important 
hearings that the committee and the subcommittee have been 
holding on MAP-21, and I look forward to hearing from the 
witnesses on the progress they are making on regulations under 
MAP-21, and whatever information they can provide us on the 
President's own proposal.
    Mr. Chairman, the changes that we enacted in MAP-21 are 
proving what I think we all recognized, and that is many years 
to put in place to bring about the reforms, rather considerable 
reforms and vision there. That was a policy-heavy 
authorization. In contrast to 2 years of flat funding, in MAP-
21 we provided an administration with many years' worth of work 
on regulation. So we haven't begun yet to understand the 
implications, indeed, to even see many of the regulations, and 
I think that is to be expected, given how substantial were the 
policy changes in MAP-21.
    Mr. Chairman, I am summarizing my testimony, and ask that 
my full testimony--my full opening statement, rather, be put in 
the record.
    Gone are the days, I believe, when we can have 3-month 
extensions or even 2-year bills. Secretary Foxx has been clear. 
Warning is out there that we run out of money, even for this 
flat 2-year bill, in August. And he will begin rationing for 
what funds are left for the States some time this summer.
    Mr. Chairman, I think that spells out c-r-i-s-i-s. I don't 
see how that could be more clear, not even enough money to last 
throughout this authorization period. If we do not address this 
crisis now--and that is why this hearing is so important, and 
why so grateful for this hearing--if we do not begin right now 
to focus on what is a genuinely difficult problem, in fiscal 
year 2015, DOT will shut its doors to any new projects, and 
States will not be able to obligate any new Federal surface 
transportation program funds. I wonder if that has ever 
happened in the history of the United States before. I hope it 
does not happen again.
    I do not think it is an exaggeration to say that, were we 
to act that irresponsibly, the impact on highway and transit 
capital programs and transit operations across the country 
would be an unmitigated disaster. Our challenges--these 
challenges make it imperative that we begin working on 
addressing the trust fund shortfall, and really developing a 
new template for the trust fund now.
    I am very encouraged that the administration has included 
an outline of a surface transportation proposal for its fiscal 
year 2015 budget. I look forward to seeing the details of that 
proposal when it has been submitted to full to Congress. And I 
am encouraged, because there are ideas that have been 
forthcoming in both Democratic and Republican proposals and the 
President's own outline, and I am hopeful that we will use his 
proposal as a guidepost, as we seek a way to find funding for 
an authorization which I trust will be at least 6 years.
    Mr. Chairman, I thank you again for this important hearing. 
And, above all, I am grateful to today's witnesses.
    Mr. Petri. Thank you. Today's panel consists of the 
Honorable Peter M. Rogoff, Acting Under Secretary for Policy, 
Office of the Secretary, U.S. Department of Transportation; Mr. 
Greg Nadeau, Deputy Administrator of the Federal Highway 
Administration; Therese McMillan, Deputy Administrator of the 
Federal Transit Administration; the Honorable Anne S. Ferro, 
Administrator, Federal Motor Carrier Safety Administration; and 
the Honorable David Friedman, Acting Administrator of the 
National Highway Traffic Safety Administration.
    Welcome to all of you. Your full statements, with unanimous 
consent, will be made a part of the record, without objection. 
And we invite you to summarize them in approximately 15 
minutes, beginning with Mr. Rogoff.

 TESTIMONY OF HON. PETER M. ROGOFF, ACTING UNDER SECRETARY FOR 
      POLICY, OFFICE OF THE SECRETARY, U.S. DEPARTMENT OF 
   TRANSPORTATION; GREGORY G. NADEAU, DEPUTY ADMINISTRATOR, 
  FEDERAL HIGHWAY ADMINISTRATION; THERESE W. MCMILLAN, DEPUTY 
  ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION; HON. ANNE S. 
      FERRO, ADMINISTRATOR, FEDERAL MOTOR CARRIER SAFETY 
ADMINISTRATION; AND HON. DAVID FRIEDMAN, ACTING ADMINISTRATOR, 
         NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Rogoff. Thank you, Mr. Chairman, Ranking Member Norton, 
members of the subcommittee, thanks for inviting me here today 
to report on our progress in carrying out the MAP-21 law, and 
to discuss our 2015 budget. I am joined here this morning by 
the modal Administrators who will testify principally about 
MAP-21 implementation. I will testify principally about the 
administration's budget and our comprehensive reauthorization 
plan.
    Since the beginning of the Obama administration, the USDOT 
has worked extensively to rebuild our Nation's infrastructure, 
put Americans back to work, and improve efficiency in our 
processes. Given the deteriorating condition of our Nation's 
roadways, railways, and transit systems, continued robust 
Federal investment is essential, and our underlying programs 
supporting our investments require an overhaul.
    The Highway Trust Fund will face insolvency by as soon as 
this summer. Secretary Foxx and the entire USDOT team have been 
sounding the alarm on this concern for some months now. The 
Highway Account of the Highway Trust Fund is likely to dip 
below the critical $4 billion funding level as soon as July, 
and the Transit Account will fall below $1 billion some time in 
August. Absent action by Congress to replenish the trust fund, 
USDOT will be required to implement cash management measures to 
preserve a positive balance in the trust fund and head off 
insolvency.
    If the trust fund were to become insolvent, hundreds of 
thousands of jobs across the Nation could be at risk, and our 
ability to address the many road, rail, and transit needs in 
every State will be severely impeded. We look forward to 
partnering with you to avoid a catastrophic impact to 
transportation construction activity in the middle of this 
summer's construction season.
    When it comes to our investment policies, MAP-21 started us 
in the right direction. It repositioned programs, and it 
reformed critical aspects of the way our infrastructure is 
built, the way roads and bridges are maintained, and the way 
projects are delivered. We believe, however, that more needs to 
be done. Going forward, the administration will be proposing 
further reforms through a $302 billion, 4-year transportation 
reauthorization plan that provides substantially increased and 
stable funding for our Nation's highways, bridges, transit, and 
rail systems. The administration's plan is fully paid for 
through existing revenue, and $150 billion in transition 
revenue from pro-growth business tax reform.
    Mr. Chairman, you stated in your opening statement that the 
record of the duration that projects take from beginning to end 
is unacceptable, and the administration agrees. Our 
reauthorization plan will deliver major projects more 
efficiently by advancing policies to facilitate the President's 
stated goal of reducing the permitting and approval time for 
major infrastructure projects in half, all while creating 
incentives for better outcomes for communities and the 
environment.
    Our plan will increase capacity to move people and freight, 
which is absolutely critical, when you consider that, by the 
year 2050, our country will experience an increase of over 100 
million residents. This effort includes a new $10 billion 
initiative over 4 years, dedicated solely to improving critical 
freight connections. The program will encourage improved State 
and regional planning around critical freight corridors. It 
will also give shippers and truck and rail industry 
representatives a meaningful role in crafting investment 
decisions in partnership with State and local governments.
    The plan will also ensure that we focus on fixing it first, 
improving the safety and performance of our existing 
infrastructure. This effort includes a new program aimed at 
repairing structurally deficient Interstate Highway System 
bridges, improving safety on rural roads, and supporting a 
state of good repair on the National Highway System.
    Our plan will also better connect Americans in both urban 
and rural communities by investing in transportation projects 
that better serve centers of employment, education, and 
essential services. This effort includes more than $2 billion 
over 4 years for a new rapid-growth area transit program that 
will link people to jobs and educational opportunities in fast-
growing areas across the country. And the plan will create more 
resilient communities by promoting smarter transportation 
planning to reduce fuel use, conserve energy, and build for the 
challenges of the future.
    In the coming weeks, the administration will formally 
transmit a legislative proposal to Congress to provide the 
programmatic details behind each one of these plans. And when 
the bill is transmitted, Mr. Chairman, we sincerely hope that 
the committee will invite the Department back to discuss them 
in full.
    We look forward to working closely with this subcommittee 
as we build on the reforms contained in MAP-21 to bring 
infrastructure improvements to Americans in a faster, better, 
and smarter way. Thank you for the opportunity to appear before 
you today.
    I look forward to answering your questions, when all the 
testimony is complete. Thank you.
    Mr. Petri. Thank you.
    Mr. Nadeau.
    Mr. Nadeau. Thank you, Mr. Chairman, Ranking Member Norton, 
members of the subcommittee, for the invitation to appear 
before you today to discuss the President's fiscal year 2015 
budget request, and the Federal Highway Administration's 
continued progress in implementing MAP-21.
    MAP-21 made changes aimed at improving safety, rebuilding 
highways and bridges, expanding TIFIA credit assistance for 
major infrastructure projects, focusing on freight policy, 
accelerating project delivery, and moving toward a more 
performance-based driven system. Building on the reforms in 
MAP-21, President Obama recently proposed a budget for the next 
fiscal year and laid out his vision for a 4-year surface 
transportation authorization that will strengthen these and 
other priorities even further.
    MAP-21's infusion of performance-based planning and 
programming into State and MPO investment decisionmaking will 
go a long way to help preserve and improve our surface 
transportation assets. We should seek to build on these efforts 
in the next authorization. I am pleased to report that 
yesterday the Federal Highway Administration published the 
first of our rulemakings seeking public comment on the safety-
related performance measures.
    The President's plan will also allow us to build on the 
successes in MAP-21 in accelerating project delivery by 
implementing new policies and procedures that will move USDOT 
and our Federal partners toward fulfilling the President's 
stated goal of reducing the permitting and approval time for 
major infrastructure projects by half. This has long been a 
priority area for the Federal Highway Administration, and we 
will continue to pursue our Every Day Counts, or EDC, as we 
know it, initiatives to demonstrate real savings of time and 
cost around the country, resulting directly from the deployment 
of technological and procedural innovation. Importantly, EDC is 
a partnership with State and local agencies and the private 
sector: important because they deliver the projects.
    Many of our successes in shortening project delivery and 
increased awareness of the innovations promoted under EDC are 
recognized throughout MAP-21. For example, Congress authorized 
for use on federally funded highway projects the once-
experimental Construction Manager/General Contractor project 
delivery method that has been promoted under EDC. Other 
examples are included in my written testimony.
    Moving beyond MAP-21, we believe that the next 
authorization must be comprehensive and should continue the 
focus on safety, freight, streamlined project delivery, and 
enhanced performance management, while increasing our 
investment in multimodal freight projects, and doing more to 
connect communities to centers of employment, education, and 
service.
    The President's 2015 budget proposes a 4-year authorization 
and requests $48.6 billion for the Federal Highway 
Administration in fiscal year 2015 to maintain and improve the 
safety, condition, and performance of our national highway 
infrastructure and enable the Federal Highway Administration to 
provide effective stewardship and oversight of highway programs 
and funding. The President's budget not only fills the looming 
shortfall in the Highway Account of the Highway Trust Fund for 
the next 4 years, it provides for sizable growth in highway 
investment--a boost of approximately 20 percent to help us 
address the many critical needs we have across the national 
highway network.
    Thank you again for the invitation to appear before you 
today, and I look forward to continued work with you and your 
staff as we build on the reforms in MAP-21 and move toward a 
new surface transportation authorization. Thank you, Mr. 
Chairman.
    Mr. Petri. Thank you.
    Ms. McMillan.
    Ms. McMillan. Chairman Petri and members of the committee, 
thank you for inviting me to discuss the Federal Transit 
Administration's progress implementing MAP-21, and the 
administration's priorities for next year's budget and the 
upcoming reauthorization.
    MAP-21 codifies some of President Obama's highest 
priorities for strengthening the Nation's public transportation 
systems at a time when transit ridership is at its highest 
level since 1956, with almost 10.7 billion trips taken in 2013, 
according to APTA's latest figures. I am proud of the progress 
we have made on the issues that are important to our riders and 
to us, particularly given the challenge of the 2-year timeframe 
in addressing its provisions.
    For example, at a time when our Nation faces a serious $86 
billion transportation infrastructure deficit for transit, MAP-
21 creates a needs-based state-of-good-repair formula program 
for fixed guideways. We are in the process of establishing a 
national transit asset management system to ensure that all of 
our grantees adopt a strategic and individual approach for 
managing their capital, and will hold them accountable for 
leveraging all available resources to bring their systems into 
a state of good repair.
    We are reviewing comments on our landmark advanced notice 
of proposed rulemaking issued last fall, emphasizing the need 
for asset management and safety to go hand in hand. We are also 
working closely with State safety oversight agencies to help 
get them on course to put a stronger and more consistent safety 
oversight regime in place. I assure you we remain sensitive to 
concerns about how we implement our new authority in the safety 
arena. This is not a one-size-fits-all approach.
    We have also made strides under MAP-21 to help our grant 
programs work better and make better use of taxpayer dollars, 
issuing new regulations and guidance to accelerate project 
delivery, streamline the NEPA process, and help our communities 
build the transit systems they need more quickly and 
efficiently.
    MAP-21 has set us on a right path, but there is much more 
to be done. As President Obama said recently, ``In today's 
global economy, first-class jobs gravitate to first-class 
infrastructure.'' That is why the President is seeking a 63-
percent increase in FTA's budget for next year over this year's 
enacted level. That would provide us an additional $6.8 billion 
to strengthen transit safety oversight, build our Nation's bus 
and rail transit infrastructure into a state of good repair, 
and provide new and expanded transit systems in many 
communities.
    Our request includes $2.5 billion to support construction 
of major capital rail and bus projects around the Nation, and 
bring relief to existing transit corridors that are at or near 
capacity. These projects create thousands of good jobs, and 
give communities the transportation choices to access jobs, 
education, health care, and other vital services.
    I would also highlight we are seeking nearly $14 billion in 
formula funds to help our grantees get the job done right, 
including $5.1 billion in increases above our currently funding 
level to support strategic fix-it-first investments, bring our 
Nation's rail transit infrastructure into a state of good 
repair, and replace aging buses that have, literally, logged in 
millions of miles.
    We also recognize how important transit has become in rural 
communities and on our tribal lands, where there are now more 
than 1,400 operators providing more than 140 million trips, 
annually. We are seeking over $600 million to support that 
demand in communities.
    Finally, I would note we are seeking $60 million for 
research and training activities, including significant funds 
to support workers looking to find jobs in the transportation 
sector. All of this is an integral part of the President's 
robust 4-year, $302 billion reauthorization package, and that 
will support the Nation's surface transportation systems, 
including public transit.
    Mr. Chairman, this concludes my testimony, and I am happy 
to answer any questions.
    Mr. Petri. Thank you.
    Administrator Ferro.
    Ms. Ferro. Thank you, Chairman Petri, Ranking Member 
Norton, and members of the subcommittee. Appreciate the 
opportunity to explain FMCSA's--the Federal Motor Carrier 
Safety Administration's--implementation of MAP-21 requirements, 
as well as some highlights on our fiscal year 2015 budget.
    DOT's top priority is safety. And, for FMCSA, it was very 
exciting to see MAP-21 support the safety framework in which 
FMCSA has been driving forward to make safety gains in further 
reducing crashes involving commercial motor vehicles on our 
highways. That framework that really is outlined very well in 
MAP-21 consists of raising the bar to safety to come into this 
industry; ensuring once you are operating in the industry, that 
you are maintaining high safety standards to stay there; and 
using all the tools at our disposal to get the high-risk 
companies and drivers and service providers off the road to 
either get better or get out of the business.
    And so, when it comes to MAP-21, MAP-21 really advanced 
some key priorities in that regard. To date, we have already 
implemented more than half of the new rulemaking requirements 
that MAP-21 incorporated, which number almost up to 40, and, 
cutting right to the chase, right out of the box, we 
implemented new rules that put in place some exemptions for 
certain types of agricultural operators and agricultural 
vehicles, exemptions from some of the core safety requirements, 
and we put in place new mandates on financial security for 
brokers and freight forwarders.
    I am very excited to say that a month ago we issued and 
published a notice of proposed rulemaking for the first-ever 
drug and alcohol clearinghouse. And just yesterday, I got the 
word from OMB that they have completed their review of a high-
priority rule known as Electronic Logging Devices, and we will 
be publishing that supplemental notice of proposed rulemaking 
in no time, imminently.
    MAP-21 also included some new enforcement authorities to 
help us with our crackdown on high-risk motorcoach companies. 
We have been very aggressive and--concerning motorcoach 
companies, and incorporated those new tools and enhanced 
training that we have already deployed across at least half of 
our investigators as of this date, and will complete training 
before the end of this year, as they proceed to focus on the 
highest risk bus and truck companies.
    And then, lastly, on MAP-21, we have underway both 
listening sessions, as well as building the framework for rules 
that will require testing prior to getting the authority for 
any new applicant for interstate operating authority--any new 
applicant, as in a company: bus, truck, motorcoach, household 
goods, hazmat. And so that new entrant testing, part of MAP-21, 
we have held several listening sessions on. We have a few more 
to go. And that will help us set the framework for the rule. 
And we are actively working on strategies to move forward with 
a rulemaking on entry-level driver training for commercial 
drivers.
    With regard to the President's fiscal year 2015 budget 
request of $669 million for FMCSA, not quite half of--about 
$315 million will support FMCSA's safety enforcement work, and 
allow us to implement some of the other operating requirements 
of MAP-21 that accelerates our review of new entrants into the 
industry. The other half, a little more than half, will go to 
States in the form of grants, again, to further enhance motor 
carrier safety enforcement through roadside inspections.
    Mr. Chairman, that concludes my remarks, and thank you, 
again, for the opportunity to talk about those key initiatives.
    Mr. Petri. Thank you.
    Mr. Friedman.
    Mr. Friedman. Good morning, Mr. Chairman and Ranking Member 
Norton and all the members of the subcommittee. I truly 
appreciate the opportunity to testify before you today. And I 
would also like to thank each and every one of you on this 
committee for your efforts on MAP-21. I look forward to working 
with you to strengthen highway safety through a comprehensive, 
4-year reauthorization of our surface transportation programs, 
as the President has proposed.
    Now, NHTSA takes tremendous pride in our nearly five-
decade-long record of protecting Americans by partnering with 
the States and--to enforce strong highway safety laws, and by 
working to make vehicles safer. Since 1970, highway fatalities 
have declined by 36 percent, and they have fallen by 22 percent 
in just the last decade. But we also have to face the reality 
of where the numbers are today. There are more than 30,000 
fatalities on America's roadways each year. We must continue to 
look for--at new and innovative ways to save lives, while 
continuing to support education and enforcement efforts that we 
know deliver results.
    The administration does continue, as Administrator Ferro 
noted, to place safety at the forefront of all that the 
Department does. And the President's budget request continues 
our efforts to save lives, reduce injuries, and lower the cost 
of crashes. States are a vital partner in these efforts. And 
that is why, as part of the budget, we are requesting $577 
million for highway traffic safety grants. Implementing MAP-21 
has been a major priority for NHTSA. The agency issued an 
interim final rule to expedite guidance to the States as 
quickly as possible. We want to get the money out and get it 
doing the good work that it is intended to do, as fast as 
possible. So, we continue to work with States to help them 
access those resources under MAP-21, and to put them to good 
use.
    Now I would like to briefly discuss a few of our 
priorities, as they are related to MAP-21. First of all, 
seatbelts. Seatbelts remain one of the single most effective 
ways to reduce deaths and injuries. And seatbelt usage is on 
the rise in our Nation. And that is great news. But I do need 
to emphasize that seatbelt use continues to be higher in States 
with primary belt laws.
    We are also working to address the issue of the epidemic of 
drunk driving, where more than 10,000 Americans lose their 
lives in completely avoidable crashes. We must make more 
progress on this critical issue.
    NHTSA is also very concerned about the upper trends in 
pedestrian and bicyclist fatalities. As Americans spend more 
and more time walking and cycling, we must bring new resources 
and proven strategies to bear to better protect them. We are 
working with the States, for example, to develop new 
performance metrics on bicycles, so that we can be targeting 
the resources where they need to go to affect and improve the 
issue of bicycle fatalities. Bicycle and pedestrian fatalities 
are a priority of Secretary Foxx, so you can expect to see our 
efforts in these areas continue to grow.
    Now, we have also worked very hard to help older Americans 
maintain their mobility safely. Older drivers are safer 
drivers, on average. But they are more likely to suffer serious 
injuries if involved in a crash. And so, it is important that 
we continue to look for ways to mitigate those risks.
    Now, in addition to NHTSA's traditional enforcement 
efforts, we are also looking to vehicle technologies for ways 
to save lives. The President's budget request supports NHTSA's 
plan to expand the agency's focus on technology. Advanced 
safety technologies such as vehicle-to-vehicle communications 
and automated vehicles can help drivers avoid crashes in the 
first place. Advances in technology are also providing new 
comforts and amenities for drivers and passengers. Our goal at 
NHTSA is for drivers and passengers to usher in and be able to 
access new technologies, while filtering out new distractions. 
We will continue those efforts to work with the industry and to 
work to minimize these distractions.
    Now, in all of our work, President Obama and Secretary Foxx 
have emphasized the need to be efficient with limited budgetary 
resources. To that end, NHTSA has strengthened its budgetary 
oversight to ensure that taxpayer resources are effectively 
managed and appropriately invested to save lives.
    Now, to conclude, and, frankly, with apologies to my DOT 
colleagues, I want to close by noting that I don't think that 
you will ever find a workforce more passionately invested in 
its mission to save lives than you will find at NHTSA. NHTSA's 
commitment to protecting the American people never wavers.
    Thank you again, members of the committee, Mr. Chairman, 
for the opportunity to testify, and I am happy to take any 
questions you may have.
    Mr. Petri. Thank you. Thank you all for your summaries of 
your--and your complete statements will be made a part of the 
record.
    I have a couple of questions. Mr. Friedman, one thing that 
is worth mentioning is that, obviously, safety is number one, 
and we want to be vigilant and keep making improvement, but 
there has been quite a success story there, in the sense that 
the number of fatalities on the Nation's highways has been 
tending downward for a number of years now. And it used to be 
in the 40,000 to 50,000 range, and it is now in the 30,000 to 
20,000 range.
    And I think the percentage of accidents that are due to 
human mistakes or peccadillos of one sort or another, as 
opposed to mechanical failures, as--there has been a 
significant improvement in the--by the auto industry and 
trucking industry in trying to build more safety into vehicles, 
and give people more of a margin for error. And that is 
continuing with autonomous vehicle technology that is rolling 
out, and the like, and it is--we are, in Government, doing 
something. But in the private sector, they are actually doing 
quite a lot that has been very effective, as well.
    And it is worth acknowledging, that it is saving lives. And 
we should focus on success, as well as failures, I think, 
because that--people like to know that they are getting 
somewhere, and not just being frustrated.
    But my question is that NHTSA funded the National Roadside 
Survey of Alcohol and Drugged Drivers in 2013, and we have been 
hearing from citizens who encountered this survey while 
driving, and who believe they were pulled over by law 
enforcement, subjected to breath saliva and blood samples. And 
since the survey hires law enforcement officers to direct 
traffic--and I guess they are often in their uniforms--it could 
appear to a motorist that they were entering into a DUI 
checkpoint or some sort of involuntary Government search 
regime.
    And I am certainly supportive of research on drunk and 
drugged driving, but I am concerned that motorists who 
encounter these surveys are not properly informed that the 
survey is voluntary. And we are increasingly living in a 
society where people are worrying about Big Brother and 
Government overstepping its bounds in a number of different 
areas, and I think we need to be sensitive to that.
    So, my question is, how is NHTSA addressing these concerns? 
And what procedures does NHTSA require in order to inform the 
motorists that the survey is voluntary?
    Mr. Friedman. Thank you very much, Mr. Chairman. And, 
quickly, relative to your first point, we look at improving 
safety as a partnership. It is a partnership with the States, 
it is a partnership with Congress, and it is a partnership with 
industry. We need everyone moving forward, and we have made 
tremendous progress in reducing highway fatalities. Our goal is 
to make a lot more.
    In regards to the roadside survey, it has definitely gotten 
a lot of attention. This is a very important program. It is a 
voluntary program. When drivers approach these sites, the very 
first thing that they see is a very large orange sign with the 
words ``Paid Voluntary Survey.'' That is their very first 
indication that this is a voluntary survey.
    In many cases, they can be waved into the survey site by 
police officers. Those police officers are there because our 
priority is safety. The job of those police officers is to 
ensure the safety of the participants, to ensure the safety of 
the researchers, because while we are gathering this data we 
need to make sure that everyone is safe. And when the driver 
enters the site, they are told very clearly, in a very strict 
protocol by the researchers, that this is voluntary. They are 
given the opportunity to drive away. In fact, when drivers 
first see this orange sign, about a quarter of them drive 
through.
    It is also important to note this is a voluntary survey. It 
collects anonymous data, purely targeted at alcohol and drug 
use among drivers. I believe we have taken every effort to make 
sure that that is clear. In fact, we are taking additional 
efforts. For example, removing the initial use of an air 
sampler to test the level of alcohol on people's breath to 
ensure that we get their consent first, before gathering any 
data.
    Mr. Petri. Well, the next time you do one of these, or next 
couple times, I don't know if you or some in your Department 
could quietly and anonymously just drive down the road and see 
if all these procedures work, and go through the experience 
without letting--not an official inspection, but--because 
sometimes you put things on paper, but in reality people follow 
the path of least resistance, and it is--you know, the public 
is--clearly, we are hearing from them. They are concerned about 
this.
    Mr. Friedman. And I understand those concerns. And we have 
continued to take those concerns very seriously. And we have 
sent staff out to these sites, and we regularly audit to make 
sure that all these policies and procedures are moving forward. 
We make sure to get the cooperation of the States, as we move 
forward, as well as local law enforcement, to ensure that 
everyone is informed, and safety is protected in these 
voluntary and anonymous surveys. Thank you.
    Mr. Petri. I have one other quick question. Ms. Ferro, some 
of my constituents have expressed their frustration with 
Federal Motor Carrier Safety Administration's safety 
measurement system. Roadside inspection violation data was 
erroneously issued by an enforcement officer, was later 
challenged in court, and the violation was dismissed. My 
constituent submitted an appeal of the dismissed violation 
through the DataQ's System, but the officer that issued the 
violation declined to repeal the violation for the SMS.
    These scores are having real-world impacts on the carriers' 
ability to find business, and erroneous violations could put a 
carrier out of business. So if it is not a valid 
administration--a violation, why is it not being removed? And 
how is this issue being addressed?
    Ms. Ferro. Mr. Chairman, at the heart of that issue has 
been a question about fairness. And so, we have examined--we 
have spoken with a lot of companies and drivers about the 
issue. We have heard a lot of recommendations.
    And so, late last year, we put together an issue--published 
a notice for comment on a new approach to that very issue. And 
that new approach would establish, in the case where a State 
charge is issued at the same time as a Federal violation on a 
safety issue in a roadside inspection, if that State charge is 
dismissed, the violation points would also be removed from that 
SMS system. If the violation--if the State charge is 
downgraded, we would make sure the record is noted that that 
charge has been downgraded.
    And so, we are wrapping up--we received a lot of comments. 
It closed in January, we are wrapping that up, and we expect to 
proceed, we think, with a better approach that actually will 
likely address the concern that you raised.
    Mr. Petri. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. To Mr. Rogoff, you 
mentioned in your testimony $4 billion funding level as soon as 
July for the Highway Account, and one for August, and then you 
talked about implementing procedures to preserve solvency. How 
soon do you think will you start adjusting downward, paring 
back, delaying? I am not sure how you are going to do it, 
reimbursements to States and local agencies. And what form do 
you think it will take?
    Mr. Rogoff. Well, Mr. DeFazio, I cited those specific 
thresholds, $4 billion for the Highway Account, and $1 billion 
as the Transit Account is sort of when our first alarm goes 
off.
    Mr. DeFazio. So you are going to go up to that point?
    Mr. Rogoff. We will. But, you know, we know what--when it 
is coming with increasing certainty with each passing month, as 
we see the Treasury reports of receipts versus expenditures.
    I think, importantly, with the re-estimate that comes with 
the submission of the budget, frankly, the trajectory for the 
Highway Account has actually worsened, and--which has us very 
concerned about this coming summer.
    The procedures that we use are effectively delaying 
reimbursement. Both of these programs work on a reimbursable 
basis. And we normally reimburse a grantee anywhere from within 
a matter of hours to, generally, no more than a day-and-a-half. 
That allows them to not have to float cash, if you will, to the 
Federal Government.
    Mr. DeFazio. Sure. So what are we looking at?
    Mr. Rogoff. And so, certainly--but our biggest concern is, 
absent action to rectify this problem, the States and the 
transit agencies are going to start revisiting their investment 
decisions a lot sooner than that.
    Mr. DeFazio. Right.
    Mr. Rogoff. So, while we will, you know, start implementing 
cash management procedures as we trickle down below $4 billion 
and below $1 billion, we are concerned that we will see a slow-
down before that that will impact employment.
    Mr. DeFazio. Right. I believe Kansas has already 
announced--at least one State--and I have got a letter from 
Oregon Department of Transportation. They are looking more at 
the next fiscal year. But I would assume that many States will 
follow, and we could see a slow-down.
    The--I am just curious. The administration has put forward 
a proposal with illusory corporate tax reform, which won't 
happen this year. We are going to pay for the trust fund. Do 
you have a backup plan? Because I have personally presented to 
the President, presented to your predecessor, presented to the 
current Secretary--I mean not your predecessor, to Ray LaHood, 
current Secretary, a simple idea. Now, as I drove to work on 
Friday, and I came home, gas had gone up a nickel a gallon. Was 
I outraged? Did I scream and yell? Did I pound? No, I expect 
it. OK?
    Well, what if 1.4 cents of that had gone to rebuild our 
infrastructure? Simple proposal. Index the current user fee gas 
tax to construction cost inflation, fleet fuel economy. We have 
run the numbers, your department ran the numbers. It is about 
1.4, 1.7 cents a gallon per year. I don't think anybody is 
going to get unelected because of that, even though there is a 
lot of tax aversion around here. And use that projected cash 
flow for bonding to backfill the trust fund.
    We have an unprecedented problem. We could raise the tax a 
dime today. You would still have this cash flow problem, 
because it is the trust fund balance that we are worried about.
    I mean is the administration looking at--will they consider 
a realistic backup plan like mine, which I believe could work, 
and is, you know, based in history, which is it is a user fee-
funded program?
    Mr. Rogoff. Mr. DeFazio, the administration has made 
clear--the President, the Secretary, on down--that we are open-
minded to any alternatives that people want to put on the table 
that help solve--
    Mr. DeFazio. I know, but I put it on the table now for 4 
years. You first--you know, you killed my reauthorization--not 
you, but the administration, because they were scared to death 
of revenues of any sort. Now they have got an illusory, fake--
you know, I mean, it is great. Yes, corporate tax reform is 
going to pay for everything in America. It is not going to 
happen. Not going to happen----
    Mr. Rogoff. I am not going to buy into the notion that they 
are illusory. I mean we----
    Mr. DeFazio. Right. No, that is--Mr. Rogoff, that is fine. 
But my point is this is a real proposal. It is real. It is 
based in history. It is only 1.4, 1.7 cents a gallon, you know? 
I can go to the most conservative parts of my district, tell 
people what I am going to build with this, who I am going to 
put to work, and say, you know, ``Will you support that?'' and 
the answer is people are not going to be outraged, except for a 
few idiots.
    Mr. Rogoff. Sir, we have made very clear--what the 
Secretary has said repeatedly in the last few weeks in 
discussions with Members is that right now we have a proposal, 
Mr. Camp has a proposal, there are other proposals out there--
--
    Mr. DeFazio. Right.
    Mr. Rogoff [continuing]. Including yours, including----
    Mr. DeFazio. OK. That is good, thank you.
    Quick question, Ms. Ferro. I just want to know. You were 
conducting an ongoing study, as I understand it, of detention 
time issues and what the impact is on drivers and et cetera. 
Where are we at on that?
    Ms. Ferro. The agency is continuing with the second phase 
of the detention study, so that we can analyze the final link 
between detention time and safety outcomes.
    Mr. DeFazio. OK.
    Ms. Ferro. Expect those to be done in 2015. I am very eager 
to see it done. Detention time is really impactful on drivers, 
on driver safety, and, frankly, wastes almost $4 billion in 
industry efficiency. So, thank you for the question.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Crawford?
    Mr. Crawford. Excellent. Thank you, Mr. Chairman. After 
enactment of the American Recovery and Reinvestment Act in 
2009, the Department of Transportation undertook a major effort 
to publicize the status and impact of these funds. It is my 
understanding both the Federal Transit Administration and the 
Federal Highway Administration included substantial 
information, including sometimes weekly State-specific reports 
on their Web sites to detail for the public the progress in 
utilizing these funds.
    There is a provision in MAP-21, section 1503, entitled, 
``Transparency and Accountability,'' that basically directs the 
Department of Transportation to do for the core highway and 
public transportation program investments what it did for the 
Recovery Act highway and transit funds. We have a lot of people 
in our country who question the value of Federal transportation 
investment.
    It seems to me it would be a good idea to--place to start 
in answering this question is showing them how each State 
benefits from these funds. It also seems that you thought this 
was a pretty good idea for a strategy for Recovery Act funds.
    So, my question, then, for Mr. Rogoff and Mr. Nadeau, is 
there a substantive reason why the Department has not been 
providing the American people with the specifics of how core 
highway and transit program funds are used in a timely manner, 
pursuant to this provision of MAP-21, as you did with stimulus 
funds?
    Mr. Nadeau. Thank you, Congressman. First, I want you to 
know we have been diligently working on this requirement, and 
expect to post a detailed report on the web, and issue the 
summary report to Congress by late spring.
    Consistent with similar financial reports and requirements 
of MAP-21, the software development was timed to ensure that we 
have 1 year of data available for the report. The scale of this 
particular report--for example, if you look at the report on 
ARRA, we are talking about a universe of about 12,000 or 13,000 
projects. This is a universe of in excess of 100,000 projects. 
So, it simply is a larger task, and we are approaching it as 
aggressively as we possibly can. But that is the expectation of 
time, with respect to delivering that product. And our 
commitment is to make it of high quality, so it will be useful 
certainly to you and Congress and the American people.
    Mr. Rogoff. Mr. Crawford, could I just add to that? We 
agree that greater transparency of where the Federal aid 
highway funds are going by project is very useful. I think, as 
Members who are voting and authorizing these projects, you 
should know precisely where the dollars are going, project by 
project. We would like to know, ourselves.
    Secretary Foxx, as a former mayor, I could tell you is--was 
curious, as a mayor in North Carolina, where all of North 
Carolina's dollars were going by project, and couldn't always 
get the information he wanted, either. We are standing up that 
capability.
    You drew a distinction between the Recovery Act and our 
regular program. The Recovery Act had reporting requirements in 
it, in statute, that gave us all of this additional 
information. That was not carried over to the Federal aid 
program. And we are not necessarily recommending that it be so, 
because it was really quite an administrative burden on the 
grantees. But, that said, we are working to get project-by-
project data, and we are as interested in it as you are.
    Mr. Crawford. Thank you, gentlemen. I appreciate it, and 
yield back.
    Mr. Petri. Thank you. Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing today.
    You know, I was very pleased to hear that Chairman Shuster 
is looking forward to addressing the freight mobility as one of 
his priorities for the bill. And I am happy to see the 
administration is also interested in that.
    I have a concern where--will the proposal attempt to 
address the concerns of large projects that are in different 
States that are relatively flat-funded formula? Is that going 
to be addressed? Because they tend to fare less than the other 
projects.
    Mr. Rogoff. Well, if I could, the administration's proposal 
for a freight program--and I think this, like a number of other 
questions, we are going to be somewhat constrained to provide 
great details until the bill is submitted. But I could tell you 
that we are specifically looking at multistate corridor 
projects and those larger projects. We are using incentive 
grants to encourage multistate cooperation, because many of 
these, when you look at these economic centers, especially in 
your region, they cross State lines very quickly. But also, to 
have a discretionary component so we could provide a sizable-
enough grant to buy down some of those major game-changing 
freight projects.
    Mr. Sires. Thank you. I want to address the issue of 
safety. In my district we are kind of unique. We have these 
jitney buses, and they are a real headache. I mean we had last 
year an accident where one of the jitney buses, the driver was 
from New York driving in New Jersey, he lost control of the 
jitney bus, hit a carriage, killed the baby that was in the 
carriage, and everybody was outraged, obviously. Do--you know, 
obviously.
    I just want to know. What more can the Federal Government 
do, in coordination with the States, to make sure that these 
jitney buses are licensed, that they are inspected, and that 
they are meeting the law? Because this fellow that was 
driving----
    Ms. Ferro. Horrible.
    Mr. Sires [continuing]. Basically had nothing. They even 
think he was texting as he was driving. So I was just wondering 
if you intend to focus more on that, because it is an 
increasing problem, especially in urban areas where transit 
companies are pulling their buses, and these jitney buses are 
coming in and filling in the gap.
    Ms. Ferro. Congressman, I--thanks to your concern and your 
focus on this issue, we have had a very good partnership with 
jurisdictional law enforcement in the areas where the jitneys 
are operating in New Jersey, up in New York, as well as with 
our State partners in New Jersey and our division office. And 
they have had some very effective sting operations and strike 
forces that have absolutely raised the attention of the jitney 
industry.
    We have followed in with additional investigations. But at 
the heart of this, and the heart of your question is, what 
resources can we devote to this issue to really press forward 
and complete that--this kind of safety outcome we are all 
driving towards?
    Our fiscal year 2015 budget does include a request for 77 
positions, the vast majority of which are for the field for 
safety enforcement work relating to our motorcoach enforcement 
efforts. We have a very focused and targeted motorcoach strike 
force initiative underway that we launched last year that has 
absolutely identified the highest risk motorcoach companies, 
and we have taken very aggressive action. But it is something 
that we put out there as a test to figure out what we needed to 
really get to one level of safety for all passengers, 
regardless of which bus they choose to use.
    And so, the gap analysis on that initiative demonstrates 
the need for additional resources that are incorporated in our 
2015 budget. But we will keep pressing forward on a partnership 
that I outlined in the initial part of my response.
    Mr. Sires. Are the State of New York and New Jersey 
cooperating fully with your efforts?
    Ms. Ferro. Yes, we have had a very good cooperation, in 
fact, between New York and New Jersey on our motorcoach work, 
the whole I-95 corridor. So the answer is yes.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Barletta?
    Mr. Barletta. Thank you, Mr. Chairman. Specifically, my 
question relates to triple-trailer trucks. Triples can be as 
long as 110 feet, and weigh as much as more than 120,000 
pounds. On the other hand, a car is roughly 16 feet long, and 
weighs less than 4,000 pounds. And, personally, these triples 
scare me. And most drivers don't want to share the roads with 
them.
    In 2000, a USDOT study found that multitrailer trucks have 
an 11 percent higher fatal crash rate than single-trailer 
trucks. The study said that this finding was significant, in 
terms of the debate about the safety of LCVs. This study was 
based on national data. Mr. Rogoff, are you familiar with this 
finding?
    Mr. Rogoff. I am.
    Mr. Barletta. Are you including it in your study findings?
    Mr. Rogoff. As it relates--if you would--if you would be 
agreeable, Mr. Barletta, I am going to let Mr. Nadeau take the 
question specifically about the weight and size study.
    Mr. Nadeau. Thank you, Peter. Mr. Barletta, there are a 
number of configurations including the study of triples. And 
that will be thoroughly examined, with respect to impact on 
infrastructure and impact----
    Mr. Barletta. So it will be included in the study findings. 
Will you be updating the findings for the current study?
    Mr. Nadeau. Well, what I am referring to is the current 
study, which is, by direction of MAP-21, due to Congress by 
November of this year. And that work is presently going on. A 
number of groups that we have assembled are analyzing various 
elements of----
    Mr. Barletta. So it will be including the information from 
the 2000 study and updating current----
    Mr. Nadeau. The study is completely comprehensive, and does 
focus in large part on current literature, historical 
literature, and applied research. So----
    Mr. Barletta. Good.
    Mr. Nadeau [continuing]. Across the board, sir.
    Mr. Barletta. Good. Thank you. Administrator Ferro, a 
recent GAO study found significant flaws in CSA, and the 
program continues to label safe carriers as unsafe within the 
trucking marketplace. Now, your budget requests millions to fix 
the system's algorithms. Since your budget priorities seem to 
suggest that you recognize the problems associated with CSA, 
why isn't FMCSA doing the right thing and pulling those scores 
off the public Web site until CSA is fixed?
    Ms. Ferro. Congressman, thank you for that question. The 
CSA program, Compliance, Safety, Accountability program, is at 
the core of our enforcement platform, and it really builds on 
work we did a decade ago that we used to call SafeStat. Again, 
it used certain inspection and investigation data to identify 
the highest risk companies. CSA really built upon that to 
utilize our full suite of inspection data, investigation data, 
to help not just FMCSA prioritize the highest risk companies--
and the program does--but also help companies themselves 
identify more quickly where they may have a safety issue and 
address it, so that they can continue operating and put safety 
as a key part of their bottom line.
    With regard to program critiques, program analysis from 
GAO, you know, at the heart of GAO's analysis they identify 
some areas of improvement that we are committed to do, as I 
have been from the moment we rolled this program out in 2010. 
It has got to be a continuous improvement effort. We have got 
to make full use of our data. And we absolutely owe it to the 
public to help prevent crashes, not wait for them to occur and 
then go ahead and look at the company. The GAO study, one of 
their core recommendations is to do just what I said: wait 
until the crash occurs and, by the way, just look at the larger 
companies.
    Now, we have 500,000 companies, the vast majority of which 
are 10 trucks or fewer. So it is very important that we 
incorporate all the safety data into our analysis and use that 
analysis to anticipate a crash, get to that company ahead of 
time with an intervention, and help them avoid that crash and 
that fatality. But rest assured, we are committed to 
incorporate improvements that are recommended through the kinds 
of analysis that you referenced.
    Mr. Barletta. Thank you. I yield back.
    Mr. Petri. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. I was going to address 
my question to Mr. Nadeau. So, as you probably know, Los 
Angeles puts a lot of our own money into funding transportation 
projects. Most recently in 2008, voters of L.A. County approved 
Measure R, which was a half-cent sales tax that will raise $40 
billion over the next 30 years for road and transit projects.
    So, we came up with the concept of America Fast Forward. 
Instead of waiting 30 years using tax revenue to build these 
projects, we thought it was a smarter idea to have the Federal 
Government kind of frontload those projects, with the 
guaranteed return of the revenue over 30 years. Part of America 
Fast Forward was advancing the expansion of TIFIA program, 
which was successfully adopted into MAP-21.
    This expansion was seen as having the potential to speed up 
the construction of a number of large, critical programs that 
weren't approved under the previous TIFIA program, which had 
smaller lending authority. States and localities all across 
this country are depending on the favorable term rates of TIFIA 
to revolutionize the way they finance infrastructure projects.
    Fortunately, we heard testimony during this subcommittee's 
last roundtable discussion that mentioned, despite the 
substantial increase in loan authority, DOT's approval of TIFIA 
loans was still incredibly slow, and the pace of approval for 
TIFIA projects was no faster than it was before this expansion. 
So, particularly in L.A. County, we are concerned on doing a 
better job of approving these.
    Give you a shout out that we were informed that DOT--that 
TIFIA sent a letter to the Gerald Desmond Bridge replacement 
project in Long Beach, inviting them to apply for a TIFIA loan, 
which could provide up to $300 million for the project. But 
want to know what you are doing to increase the rate at which 
your office approves these loans. That is what is going to be 
critical as we move forward to invest in our country's 
infrastructure.
    Mr. Rogoff. Congresswoman, Hahn, if it is OK, I am going to 
take that question.
    Ms. Hahn. OK.
    Mr. Rogoff. We have always been very impressed, and hold 
out, obviously, Measure R as sort of a national model on how--
when the local voters step up and decide to invest in 
themselves, that the Federal Government should both applaud and 
help that, and magnify that investment.
    I believe we have actually been rather successful in the 
following respect in making the TIFIA loans happen for L.A. in 
a timely manner, in that we have been able to, for the first 
time, get the Federal Transit Administration and the TIFIA 
program sort of working hand-in-glove, so when we were ready to 
sign a full-funding grant agreement for the regional connector, 
the TIFIA loan was ready to go. When we were ready to sign a 
full-funding grant agreement for the West Side Subway, the 
TIFIA grant is ready to go.
    Now, I think it is important to remember. We are working--
and I know our chief financial officer, Sylvia Garcia, is 
working on this. But it is also important to remember that 
TIFIA loans are not like pack-n-play, one size, they are all 
identical. In fact, every one of them--I believe there is 
probably no two deals that are identical. Each borrower has a 
different creditworthiness profile. Each loan has to be 
negotiated separately. Maybe we will get to a point where we 
could do these on a kind of more formatted basis.
    But in order to protect the taxpayer interest, we do need 
to make sure--now, we will do well. We are getting, you know--
--
    Ms. Hahn. You are saying--the testimony that we heard last 
roundtable that--the approval was still incredibly slow, and it 
has really been no faster than----
    Mr. Rogoff. Well, we share the----
    Ms. Hahn. Yes.
    Mr. Rogoff. We share the frustration----
    Ms. Hahn. So I guess my question is, what are you doing 
to----
    Mr. Rogoff. We are reviewing----
    Ms. Hahn [continuing]. Even so that we are----
    Mr. Rogoff [continuing]. The processes. We are looking at 
the creditworthiness reviews. We are looking at--again, but one 
of the challenges we have, we want to make things go more 
quickly, also. We are asking for $4 billion over 4 years for 
TIFIA, so we greatly applaud the expansion of the program that 
began under----
    Ms. Hahn. So what are you doing to increase the rate----
    Mr. Rogoff. We are specifically looking at the process by 
which we put each borrower through, in terms of the multiple 
steps, and seeing if that can be streamlined. Our challenge 
comes when each borrower wants a slightly different deal, 
because then we need to go and do our due diligence on their 
payback ability for that deal.
    Now, we--the Secretary was just in New York, talking to 
people interested in public-private partnerships. We are as 
critically interested as the committee in sort of getting more 
of that private money to bear on infrastructure projects. But 
these are complicated transactions. I cannot tell you that we 
can execute them as rapidly as we do a grant.
    Ms. Hahn. Well, it is critical, obviously. It is critical 
for--and not just L.A. County region, but certainly across this 
country. Folks are really depending on this loan process to 
speed up the investment in infrastructure. And we know that is 
what is going to keep our transportation system viable, create 
jobs, improve the economy. Really a lot depends on----
    Mr. Rogoff. Indeed. And when you look across our budget 
proposals, we obviously want to make this a more robust 
element. Not only are we making a $4 billion commitment to 
TIFIA over 4 years, the President's budget also has the re-
institution of America Fast Forward bonds, and the institution 
of an infrastructure bank that actually expands beyond 
transportation, but goes to other areas of investment, be it 
school infrastructure investment, power grid, other areas that 
we want.
    So we are on board, I am just trying to explain that we 
can't turn on a dime and suddenly do a transaction in 2 weeks 
that used to take 2 months.
    Ms. Hahn. Thank you.
    Mr. Petri. Mr. Davis.
    Mr. Davis. Thank you, Chairman. Mr. Rogoff, I will keep you 
going. In section 192 of the 2014 omnibus, Congress made 
available $80 million in unused SAFETEA-LU Maglev dollars to 
fund several dormant rail grant programs, including passenger 
rail capital projects, railroad safety technology grants that 
can be used for PTC implementation, and high-speed rail 
corridor planning grants.
    Of the $80 million, as you know, $20 million is set aside 
for the high-speed rail corridor planning grants. Recognizing 
that the omnibus gives significant discretion to your 
Department, can you shed some light on how the Department 
specifically intends to allocate the remaining $60 million?
    Mr. Rogoff. It is currently under review, Mr. Davis. I 
would, you know, be happy--I think it would make more sense, if 
you would like, is I could come up to your office with our FRA 
Administrator, Joe Szabo, and talk through that, because I have 
been a part of some of those discussions, but not all of them. 
And I know a hard decision has not yet been made.
    Mr. Davis. OK. Any time I can get a chance to meet with my 
colleague from Illinois, Mr. Szabo----
    Mr. Rogoff. Yes, that is right.
    Mr. Davis [continuing]. I will have my office give your 
office a call.
    Mr. Rogoff. Absolutely.
    Mr. Davis. I would like to do that sooner, rather than 
later.
    Mr. Rogoff. Happy to do it.
    Mr. Davis. Thank you. Ms. McMillan, you mentioned in your 
testimony that last year was a very challenging year for the 
capital investment grant program, because of sequestration, but 
that 2014 offers a brighter future. Can you tell me what 
guidance or rules that the FTA has, and plans to issue moving 
forward to carry out the changes made in MAP-21 to improve the 
project's approval process?
    Ms. McMillan. Thank you very much, Congressman, for that 
question. I think this is an area where the Federal Transit 
Administration has made some great strides. Even prior to MAP-
21, we had developed new criteria that was far more responsive 
to communities for the purposes of evaluating projects, 
including a far more understandable cost effectiveness measure, 
and new criteria on environmental benefits and the like.
    We have also been working very closely to continue our 
streamlining efforts, including the notion of a warrant, where 
an agency that either has a small amount of funding as part--
Federal funding in the larger package, or has demonstrated 
experience in the past can get through our evaluation process 
more quickly.
    MAP-21, as you know, also reduced the number of steps that 
are required as part of the capital investment grant program, 
and we are working very closely on rulemaking to put that into 
regulation and guidance for our grantees. This is a very 
popular program, and this has been one of our top priorities.
    I would also say that one of the elements that has made the 
process a bit arduous in the past is the requirement to do 
travel modeling. In other words, to estimate ridership of these 
future projects. And we are proud to say that we have developed 
an off-the-shelf transit forecasting tool that, if you meet 
certain assumptions and conditions, can really reduce what used 
to be a 2-year process for estimating transit trips maybe down 
to 2 weeks, if you can use this off-the-shelf tool and FTA has 
been working hand in hand with our industry to bring that tool 
to bear.
    So, there are some examples of what we are doing to get 
this process moving.
    Mr. Davis. Thank you, Ms. McMillan. And, Mr. Nadeau, 
following up on what my colleague, Ms. Hahn, mentioned on the 
TIFIA program, I want to give you a chance. And you mentioned 
in your testimony that DOT has closed on eight projects through 
TIFIA. I want to know, because I am a true believer in public 
money to leverage private money and encourage some public-
private partnerships. And we both know MAP-21 made some changes 
to improve participation in rural areas. What kind of response 
have you seen, and do you think there are ways to build upon 
these changes and increase rural participation?
    Mr. Nadeau. It is--I think for projects--and rural doesn't 
necessarily always mean smaller scale. I think the 
administration----
    Mr. Davis. I know. Look at my district.
    Mr. Nadeau. Exactly. But it depends entirely on the 
economics of the revenue side. If you are generally looking at 
debt financing as a solution, then, obviously, revenue becomes 
the key. So that either relies on a revenue stream coming from 
State or local revenue sources or, for example, tolling, where 
that is economically viable.
    I think the administration's view is to develop tools that 
are flexible and creative and that, above all, leverage capital 
from private markets. That theory works both in an urban 
setting and a rural setting, and it depends entirely on the 
circumstances surrounding the individual project, as Mr. Rogoff 
pointed out.
    Mr. Rogoff. I am sorry, I just want to--your State has 
actually stepped out. I mean, in that--at least in the case 
of--it is a project that is before us and under consideration, 
but in the case of the Illiana Parkway, for example, the 
challenge is who is going to pay back the debt. And in that 
particular case, recognizing that the resources might not be 
local to pay back the--the State is committing themselves to 
repayment, and that is what facilitates the rural project. So 
we are working on it.
    Mr. Davis. Great. Thank you all very much. I yield back.
    Mr. Petri. Ms. Edwards?
    Ms. Edwards. Thank you, Mr. Chairman. And thank you for the 
hearing today, and to our witnesses. I want to first thank the 
President and the administration for making sure that in its 
New Starts budget proposals, it includes funding for the long 
sought-after Purple Line here, in the national capital region, 
and the Red Line in Baltimore. And so, I hope that we are able 
to come through with the resources needed to get those 
underway, because I think it would do a lot to improve things 
like air and water quality here in the metropolitan region, and 
to free up transit along the beltway, so that we can free up 
that 95 corridor, so that farmers can get their goods to 
market, and other sorts of things.
    I have been long concerned about rail safety. When I first 
came into Congress, it was just after--just before, rather, we 
had that tragic accident on the Red Line. And so I think a lot 
has been done by the administration and by WMATA and our States 
to make sure that that kind of tragedy doesn't happen in the 
future, adding, you know, better cars on the line--Mr. Rogoff, 
you know that--but also, Senator Mikulski and I, along with our 
bipartisan delegation here in the metropolitan region, worked 
to make sure that began to get some national Metro safety 
standards in place, because this accident didn't stand alone. 
It had been a whole history across the country of similar 
accidents, and finding out that, despite recommendations for 
years, we didn't have, really, national standards.
    Now the question becomes how do you implement those 
standards? And I know that Deputy Administrator McMillan--that 
your administration has been in the process of implementing 
those standards. You released some grants for, I think, fiscal 
years 2013 and 2014 for State safety oversight. But I am 
curious to know whether there were existing State--I cannot say 
that--State safety oversight grants that did not meet the 
criteria that was set forth in MAP-21, and how many of these 
formula grants went out, versus ones that were not.
    And then, lastly, what is the FTA doing to bring these 
oversight agencies into compliance?
    Ms. McMillan. Thank you very much for the question, 
Congresswoman. And, indeed, as we have said and can't say 
enough, safety remains the top priority for the DOT, overall. 
And the establishment of the safety authority for FTA under 
MAP-21 was a much-appreciated and forward-looking 
acknowledgment of that priority, and it remains one of the 
major focus areas for implementation for us.
    With regards to the State safety oversight agencies, again, 
as a launching off point, these are the agencies that actually 
existed prior. What MAP-21 has done is to clarify and 
strengthen what their responsibilities are. The amount of 
funding that has been available to help them do that, as you 
noted, has--the apportionments have been published for both 
fiscal year 2013--about $21 million--and $22 million in 2014. 
In order to access those funds, they need to be able to either 
have met the criteria that MAP-21 outlines, or be able to put 
together a plan to show how they are going to get----
    Ms. Edwards. So how many of them met the--of the ones who 
qualify, how many of them met the criteria?
    Ms. McMillan. Two of them have met them currently, 
California and Massachusetts. For the remaining ones, we have 
been working individually with the State safety oversight 
agencies on a compliance review to say what are the gaps, and 
to help them put together a plan in order to show how they can 
meet those.
    Ms. Edwards. But they got the grants anyway?
    Ms. McMillan. No. They get the grants at the point they 
submit a plan, and we can see if they have got a path forward. 
And once that plan is reviewed, then the apportionment 
available to them would be made available to them, in terms of 
a grant. So, it is a step-by-step process.
    Ms. Edwards. I would like to follow up with you about that. 
But as my time remains, I have one question that--it is at a 
high order, and this goes to Mr. Rogoff.
    There has been a debate within this committee about the 
relative merit of Federal or taxpayers ``subsidizing'' transit. 
And I wonder if you could tell us about the value of investing 
in transit, whether or not you make money off of it, to the 
traveling public and to the taxpayer. And do we get some of 
those same concerns that get raised for roads that are in the 
middle of nowhere, but we still have them anyway, and are happy 
to fund them?
    Mr. Rogoff. Well, I think our position throughout has been 
that transit investments are absolutely essential. And, 
frankly, they are more essential now than they ever have been 
in the modern era. I think Deputy Administrator McMillan said 
in her opening statement we have now crept back to a level of 
transit ridership not experienced since 1956, and it just seems 
to keep going up.
    What we are most focused on at the Department of 
Transportation is the 2010 census, and what it tells us: 
namely, about 100 million more people, just by 2050. And, even 
more acutely, those people are largely going to reside in areas 
that have already experienced sizable population growth 
already. So the fast-growing areas are going to grow even 
faster. And if we are going to avoid a situation where that 
growth doesn't choke off that area, and choke off the economy 
in those areas, transit is going to be part of the solution. So 
is highways, so is ports, so are runways.
    I mean, with 100 million more people coming by 2050, we 
need more of all of it, but transit is certainly part of that 
solution.
    Mr. Hanna [presiding]. I live in the middle of nowhere, 
Donna, I want you to know that. Thank you. Because I got to get 
home, you know?
    Ms. Ferro, thank you for being--it is good to see you. I 
want to say that, in some ways--and I believe your intentions 
are good--you are hurting the people that--I hear regularly--
that you are paid to help.
    The--as you are aware, on February 3, 2014, the Government 
Accountability Office issued a report that examined CSA. This 
is about the CSA and the safety measurement system. Among other 
things, the GAO found that FMCSA's minimum data required to 
receive the CSA SMS scores are not sufficient to produce 
reliable scores, and do not allow for a cross comparison of 
different carriers. GAO pointed out that this led to FMCSA to 
identify high-risk carriers who were not substantially involved 
in crashes. Ultimately, the GAO recommended that the FMCSA 
address limitations of the CSA program.
    Although the CSA program improves carrier attention to 
safety over its predecessor, we have heard from--I have heard 
from stakeholders throughout the transportation industry 
expressing serious concerns with the FMCSA's implementation of 
CSA programs. Inaccurate SMS scores have caused increases in 
insurance rates, expensive litigation, losses to business 
operation.
    For example, according to January 12th report of the 
American Transportation Research Institute, 50 percent of 
shippers admitted they did not enter into new contracts with 
carriers based on negative scores, largely--and you admitted 
this earlier--these scores are not necessarily accurate. In 
many cases, they are erroneous.
    Furthermore, you and I have had an ongoing discussion about 
hours of service. Your own report, that was not done before the 
rule was enacted--and nobody is arguing that you had a legal 
right to enact the rule--your report would discuss the FMCSA's 
hours-of-service rules. The field study, which came to Congress 
5 months late, had only 100 carriers, and showed a mere 12-
minute increase--12-minute increase--in average sleep time for 
drivers who now operate under the new rules.
    The American Transportation Research Institute again 
questions your alleging that this is a savings. They believe 
that it costs almost $400 million--$374 million--a year. So 
that--my point is that these rules and regulations that you 
talked about earlier, how about you are addressing them, these 
are real day, everyday constant, ongoing, tortuous problems 
that you are putting these truckers through. And, frankly, the 
organization acts like they have got all the time in the world 
to correct these problems that are online. These drivers, who 
try hard, are suffering because they get a rating that 
apparently the GAO says could possibly be erroneous--and a lot 
of them we know they are--the comparisons between large 
truckers and small truckers.
    Doesn't that cause you some concern that, I mean, the very 
business that you are trying to help, the people whose lives--
and I know you, you are earnest, you are trying to save lives 
and this--your own study that requires people to sleep at 
certain hours, that tells them when they are tired and when 
they are not, did not even begin to measure the fact that you 
pushed these drivers into early morning hours, when they are 
much, much, much busier, when the traffic is much more 
congested?
    What I am saying is that you are really--I think you need 
to back up, ma'am, and take a look at some of this stuff, and 
believe the drivers that--who tell you or write you, and 
Congressman from Maine, Michaud, when I wrote you a letter 
about this.
    So, I have kind of used up my time--therefore, yours--but I 
am assuming--and I didn't necessarily do that on purpose, but I 
think you get it, but it is--are we so thick that we can't hear 
the very people whose lives we are impacting? I mean is there 
nobody you believe but some academic who does a study? And why 
is it so rigidly adhered to, when every day--and I know you do 
yourself, you are from people who do not like these rules, 
regulations, and you know you are hurting people. And the facts 
are--I mean they are not written by people who are not doing it 
earnestly. But, I am sorry, go ahead. Thank you.
    Ms. Ferro. All right, thank you. Thank you, Congressman 
Hanna.
    Look, from the outset, real quickly, I am not hired to help 
the industry. I am hired to ensure the safety of the traveling 
public, and improve the safety of the operations of trucks and 
buses. That is what the agency was created to do. And, as its 
lead, I am very proud to be a part of that----
    Mr. Hanna. I would say that you are not doing that. Because 
what I hear from the truckers is that you are pushing them into 
hours that are less safe, that, in many cases, you are 
prescriptive about when they are tired, and when they are not. 
And, therefore, they may be less safe. And when drivers can't 
get a score that is accurate, and they are measured, their cost 
of doing business and who they are hired by are affected.
    And when you take hours-of-service rules that cause 
truckers to buy more trucks, work more--hire more drivers, put 
more trucks on the road, you are not necessarily doing what you 
say you are trying to do. Yet I have no argument that you 
believe that.
    Ms. Ferro. And so, the second two pieces, on CSA and hours 
of service--I appreciate--I understand what you are saying, and 
we have had these conversations before, and I appreciate the 
time you have taken with me on those conversations, and I 
assure everybody this broken wrist is not from those 
conversations, you have always been very cordial and, I think, 
very energetic.
    The hours-of-service rule, at its heart, is designed to 
reduce the kind of cumulative fatigue that comes from working 
up to 80 hours a week, week after week after week. And the 
effects of that fatigue impact the ability of drivers to drive 
safely. We certainly recognize there is a financial impact to 
that rule. There is a much larger and offsetting safety benefit 
to that rule, and health benefit to the drivers.
    Mr. Hanna. We do not agree on that.
    Ms. Ferro. Yes, I----
    Mr. Hanna. And neither do most drivers that I talk to. And 
12 minutes a week does nothing to mitigate--to support what you 
just said. And that is your study, not anyone else's.
    Ms. Ferro. And so, on the Compliance Safety Accountability 
program, you know, look, we have had several key studies 
recently. GSA says--GAO says you are not doing--you are doing 
too much, use less data. Oh, are we--have I lost my time now, 
completely?
    Mr. Hanna. No, I did that to you, I apologize.
    Ms. Ferro. OK.
    Mr. Hanna. Thank you to my friends for indulging me.
    Ms. Frankel?
    Ms. Frankel. Yes. Thank you, Mr. Chair. And I want to thank 
the leaders and the leaders in this committee. I think we did a 
really good job on water, and I hope we can do an excellent job 
on the surface transportation bill. And thank you all for being 
here.
    My question is a little bit parochial, but, actually, I 
think it will serve as an example for other areas of the 
Nation. Florida--I am from south Florida. And we have been 
notified by FEC about a project called All Aboard, which will 
be a nonstop train that will make a few stops, one in Miami, 
Fort Lauderdale, West Palm Beach, and Orlando. And I happen to 
represent the area--a large part of that area that the train 
will go through, and I am getting mixed comments from my 
stakeholders, depending upon where they are situated.
    The cities where there is going to be a stop are embracing 
the project, because they believe that there may be an 
opportunity for more economic growth. The cities that the train 
just passes through multiple times a day, of course, are 
concerned. And let me tell you what some of their concerns are, 
and--because my question is going to be whether or not there is 
a way to address them with a Federal response.
    For All Aboard to do the project, they are applying for a 
RIF loan of over $1 billion. Here is what my cities are asking. 
They are going to need funding for a traffic signalization, for 
quiet zone infrastructure, for--there will be one city where 
streets will be closed because of a new platform. They need 
money for overpasses, for reliever roads. And then, there are 
those venues that want opportunities to take advantage of the 
All Aboard, and they are looking for money for other connecting 
transportation, both infrastructure and operating costs.
    And finally, the cities are all saying, ``Well, now we are 
obligated under law''--under the railroad law, I guess, that 
they are going to have to pay more money to maintain the 
improvements. And so, my question is, I guess, what do you 
suggest as the best way to go about coordinating the good, the 
bad, and the ugly for our community?
    Mr. Rogoff. Well, Ms. Frankel, we are well aware of the RIF 
loan application. We have been in discussions with the FEC 
about it. It has been--undergone a few changes. I think the 
short answer to your question, in terms of local impacts, those 
issues are generally--need to be solved locally, because just 
as we have in other areas of Florida, whether it was in the 
SunRail project in the Orlando area, there was a lot of 
communications between the impacted municipalities, some of 
whom were making a financial contribution to get SunRail 
service, about these issues, about traffic interruption, about 
related infrastructure.
    The RIF program itself can only pay for the railroad 
infrastructure. But this needs to be part of a broader regional 
agreement. We are concerned specifically about one aspect about 
it, and that is to make sure that we don't end up subsidizing, 
if you will, two competing entities between Tri-Rail and the 
All Aboard Florida vision. And we are expecting that there will 
be an agreement between the south Florida Regional Transit 
Authority and FEC before any RIF loan is made to bring that 
about.
    But I would strongly encourage you to have those local 
community leaders engage the FEC, in terms of--you know, the 
issue always comes down to who is going to pay for what. And 
that generally needs to be a regional discussion. Certainly 
formula funds that are brought to south Florida could be 
brought to bear on some of those needs. But the RIF program 
could only pay for the railroad infrastructure by law.
    Ms. Frankel. Does that--would that include the 
infrastructure needed for quiet zones?
    Mr. Rogoff. Some of that related for quiet zones would be 
railroad infrastructure. You know, in terms of the 
signalization, in terms of the sort of added, more robust 
railroad safety measures to ensure that we--they would not have 
to use the horn, and therefore could progress through the 
community, that generally requires greater gates, more precise 
signalization, and that would be RIF-eligible.
    Ms. Frankel. And--OK, that is very helpful. What about in 
coordinating other grant opportunities, such as a TIGER grant?
    Mr. Rogoff. Well, those other expenses in the communities 
would be eligible for a TIGER grant, and we have just kicked 
off the new round, round six, which we are very excited about. 
The flip side of that, of course, is, as we have had to say, it 
is easier to get into Harvard than get a TIGER grant, just 
based on the extraordinary competition for that money. So I 
don't want to sort of lay out hopes and expectations. But it is 
certainly eligible for a TIGER grant.
    Ms. Frankel. OK. And just one final question on the trust 
fund. If the trust--if what you say comes true, and there is no 
more money in the trust fund, are there going to be projects 
around this country that are going to be left uncompleted?
    Mr. Rogoff. Absolutely. If we have, you know, major 
projects in play, and we have to eventually cease 
reimbursement, you know, we would start by slowing 
reimbursements. But I have to think that, across the country, 
as not only State transportation secretaries--entities like 
FDOT, but also the transit agencies themselves--have assumed 
multiyear funding, when suddenly they know that they don't have 
the cash to float the Federal Government to wait for 
reimbursement for weeks, if not months, then some projects are 
going to have to be halted.
    Ms. Frankel. Thank you. Thank you, Mr. Chair.
    Mr. Petri [presiding]. Thank you. Mr. Williams?
    Mr. Williams. Thank you, Mr. Chairman. Appreciate all of 
you being here. Secretary Rogoff, my question to you--I 
represent Texas. Of course a lot of what you are talking about 
is really important to us. And my question would be to you is 
this. The President has requested $825 million to implement 
positive train control, the system, on commuter railroads, with 
a phase-out scheduled in 2018.
    Now, will you please explain to this subcommittee the 
significance of the 2018 spending timeline, and as the 
administration--and is the administration planning to propose 
an extension to the December 2015 PTC deadline currently in 
statute? Do you think it would be--it would make sense to 
extend the deadline beyond 2015, given your budget proposal?
    Mr. Rogoff. Well, Mr. Williams, we certainly recognize that 
the 2015 deadline is going to be extraordinarily hard to meet. 
And, quite honestly, we are having new and emergent 
complications with our partners at the FCC regarding the 
construction of towers that are necessary in some cases for PTC 
to be installed.
    That said, we are not inclined to move the deadline. We are 
just inclined to keep the momentum going. I think the 
groundbreaking step, as part of our budget, is to say we 
recognize that this is not only an urgent safety requirement 
required by law, it is also an expensive one. And we are 
helping put some Federal resources behind it. But, no, we are 
not inclined to necessarily move the deadline. But I think you 
could take the multiyear budget request as an acknowledgment 
that not everyone is going to make it.
    Mr. Williams. OK, thank you. My next question would be to 
you, Mr. Friedman. One of the rulemakings that you are working 
on that raises my concern regards requiring speed limiters on 
heavy-duty trucks. In States like mine, Texas, we often have 
speed limits above 65, where trucks and cars, they drive safely 
on the highway at the same rate of speed. If you require the 
use of a speed limiter, you not only prevent the trucker from 
moving with the flow of traffic, but in many States you will 
require them to drive below the speed limit. This adds a speed 
differential to the highway which leads to accidents.
    And do you, when you are analyzing this, is this a concern, 
and--when you start thinking about this rulemkaing?
    Mr. Rogoff. Thank you very much, Congressman. As you know, 
we are in the middle of a rulemaking process on this issue. We 
were petitioned by the American Trucking Association, as well 
as safety advocates, to address serious concerns about roadway 
fatalities with large vehicles. What we are doing as we go 
through this rulemaking is ensuring that we consider the data 
on to what degree does speeding increase fatalities. The higher 
the speed, the more the energy in a crash, the more dangerous 
the crash can be.
    What we are trying to do is diligently make sure that we 
are looking into the data, we are evaluating the costs and 
benefits, and we will soon be able to talk to you about how we 
plan to move forward with rulemaking on this process.
    Mr. Williams. Well, I think it is important, because, you 
know, traffic flow is what we are all after. I appreciate you 
taking a look at it.
    Mr. Rogoff. Thank you, sir. Safety is our bottom line. With 
all of this, we want to make sure that everyone can get where 
they need to go, in the time they need to go, and that they are 
safe all along the way.
    Mr. Williams. People and product.
    Mr. Rogoff. Thank you.
    Mr. Williams. Mr. Chairman, I yield back.
    Mr. Petri. Thank you. Eleanor Holmes Norton.
    Ms. Norton. Let me just say how much I regret not having 
been here to hear the questions, given how this committee has 
proceeded, proceeding in good faith to try to get a bill out. 
So I would have benefitted greatly. I had a markup, 
unfortunately, in another committee.
    This region experienced a horrific tragedy. And out of that 
tragedy, I am pleased to say, at least came the first Federal 
authority to regulate Metrorail safety through cities. It was 
the only form of transportation that was not regulated.
    Now, I understand that these grants have been given to 
local jurisdictions to proceed, but I have a hard time 
understanding how they can do so adequately without the final 
rule on rail safety. So I suppose I should be asking Ms. 
McMillan about the final rule, and how does that link to what 
the States are doing without the authority of the Federal 
Government in place?
    Ms. McMillan. Thank you very much for that question, 
Congresswoman Norton. And, you know, indeed, as we have been 
saying, safety is absolutely critical. And advancing where FTA 
stands in that paradigm was a huge part of MAP-21 that we are 
taking very seriously, and implementing.
    With respect to, again, the State safety oversight agencies 
that are overseeing and partnering with us in carrying out this 
law, one of the things that we realized is that a number of 
State safety oversight agencies are not yet positioned to meet 
all of the requirements that are in MAP-21, which stipulated, 
you know, what they need to be, in terms of an organization, 
and their capabilities for enforcement, and issues like that. 
But, as well, laying out the steps that they would need to take 
in terms of carrying out the regulations.
    On the former, it was important that we also recognize they 
need some resources to get to the place they need to be. So we 
have been working with each one individually--we call it sort 
of gap analysis--of where they are falling short of what MAP-21 
envisions them to be, in terms of their capabilities to carry 
out regulations once they are done. And we are ensuring that 
they have a plan of how to get there. And this grant funding 
will assist them in getting to the place that, again, MAP-21 
and the Federal Transit Administration would like them to be, 
in terms of their own capabilities.
    The SSOs will continue to be a partner with us, as on 
another track we are actually implementing the regulatory 
elements for safety, including the commonsense thresholds and 
requirements that need to be met.
    Ms. Norton. Now, when do you expect those to----
    Ms. McMillan. We issued an advanced notice of proposed 
rulemaking back in the fall, because we knew that this was such 
a groundbreaking new element, and we didn't want to jump into 
the deep end of the pool of rulemaking without getting 
substantial input from the industry, from the public, and from 
other stakeholders. We got hundreds of comments on that ANPRM, 
and we are working through reviewing that right now, and we 
will then be proceeding to issue formal notices of proposed 
rulemaking--NPRM--once we have had a chance to go through 
that----
    Ms. Norton. But you don't have a date on that yet?
    Ms. McMillan. We don't have a date yet. But we----
    Ms. Norton. Could I ask you one question about buses? You 
know, there has been complaints from some parts of the country 
that buses are--and trucks are stepchildren, for example, Ms. 
McMillan. For the state of good repair, I would like to know--
it seems to be mostly for rail. And yet, buses and bus 
facilities have suffered tremendously. Is it mostly--what 
portion of the $86 billion is for buses?
    Ms. McMillan. That is an excellent question. And just to be 
clear, the $86 billion is the estimate of the backlog for 
deferred investment--reinvestment need in transit 
infrastructure. A major chunk of that figure is related to 
rail. But what is important to note is that even though buses 
may not make up the vast majority of that delta, the buses--
because they aren't as capital intensive as rail systems--40 
percent of buses, we believe, are in marginal or poor 
condition. This leads to one of the major recommendations we 
have made as part of the President's budget.
    We have heard, since MAP-21 went into effect, that the bus 
and bus facilities program funding level authorized for those 2 
years is insufficient to meet the needs of the very 
constituents you are talking about, which are bus providers, 
very often in small urbanized areas, or rural areas. And we are 
seeking over a 300-percent increase in the funding level to 
deal with that particular program. It went from a discretionary 
program under SAFETEA-LU to a formula program under MAP-21. And 
there were so many parties negatively affected that the funding 
level really does need to be raised by this committee.
    So, we are hearing what the industry is telling us, as you 
have heard yourself. And we have a proposal on the table to 
address that need, specifically.
    Ms. Norton. Mr. Chairman, do I have time just to ask one 
question for trucks? Thank you very much.
    There has been serious concern about a rule that was 
withdrawn. This has gone on for some years now. It has to do 
with the entry-level training requirements. This, I think, goes 
to Ms. Ferro for truck and bus drivers. Now we see an industry 
where that form of transportation, if anything, is increasing. 
And most of these are not your big companies that, of course, 
have their own driver training.
    In the absence of Federal action for behind-the-wheel 
training--and that is what I am mostly concerned about--what 
you had--and this is a vibrant, private economy--you have got 
private training schools. Some of them may be all right, but, 
frankly, they have been much criticized as being the diploma 
mills who increase their own bottom line because they are 
offering the service that is otherwise unavailable.
    I am very concerned that you apparently had a rule and 
withdrew the rule. I like to know--and since we required this 
years ago--when you intend to issue a rule pursuant to the 
congressional mandate to do so. Was it 20 years ago that we 
said--how many years ago were they supposed to be--yes, 20 
years ago.
    Ms. Ferro. Yes.
    Ms. Norton. I think you all are a little late, in other 
words.
    Ms. Ferro. Well, it is clearly a rule that would have 
reached the age of majority and had its license long before 
now. So I appreciate your concern. And I think what is always 
so surprising to all of us is that a--an issue that seems so 
widely shared in interest and understanding, that to operate a 
piece of equipment that could weigh up to 80,000 pounds, that 
could carry up to 70 to 80 people, that that driver is not 
required today to have training. And so I appreciate the 
concerns you raised, Ranking Member Norton.
    The FMCSA has tried for a number of years to move forward 
on a rulemaking, and we have been challenged in finding the 
research that demonstrates the cost benefit analysis that we 
must provide with any rulemaking that shows that training a CDL 
driver before they get behind the wheel actually results in a 
long-term savings and safety gains--or savings through those 
safety gains.
    Consequently, after we had an NPRM on the street, we did, 
in fact, pull it down shortly after MAP-21 was enacted, moved 
forward with two research projects that will, in fact, help 
inform us on that very outcome, those safety outcomes that 
result from training, and have begun the process of convening 
a--at least striving towards an approach of a negotiated 
rulemaking. There is so much agreement on the core of this 
issue, but the elements for which there is still not a clear 
consensus is how many hours behind the wheel, how many 
classroom hours. Should it be performance-based? Should it be a 
set number?
    And so, we are moving ahead. We are very eager to because, 
again, for the very concerns you raise----
    Ms. Norton. So I don't know how you are proceeding, whether 
it is mandated rules or what. I invite you to look at how we 
did--when there was disagreement as to how we ought to approach 
the regulation of rail when it hadn't been--Metrorail had not 
been done before, and we gave guidance to the States on how to 
do things. I mean we got to break out of this if the kind of 
mandated rules don't work. I certainly hope there is another 
way to get it done, and that it would be within the mandate of 
Congress.
    And I thank you very much for your indulgence, Mr. 
Chairman.
    Mr. Petri. Thank you. Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman. And thank you folks for 
being here.
    Mr. Friedman, I am going to start my questions with you, 
and it regards the National Roadside Survey. I have not myself 
witnessed, but I have citizens that are concerned, and I am 
going to ask these questions on their behalf.
    The option to drive past, is it that I am driving past and 
I can just keep driving, or I have to pull in and then opt out?
    Mr. Friedman. Thank you, Congressman Perry, for your 
question. This is, as I mentioned before, a voluntary, 
anonymous survey.
    Mr. Perry. Just asking----
    Mr. Friedman. Absolutely. When the driver first approaches 
the scene, they see this large, orange sign. And if they choose 
not to pull in, they can drive right on past. In fact, we 
believe that roughly about a quarter of the drivers, after they 
see the sign and are signaled to pull into the site, just 
simply drive right on.
    Mr. Perry. All right. Do you keep any records, or is there 
any tallying of--when you say you believe this many people 
drive past, is there any empirical data regarding that, or is 
it just kind of a survey that you take randomly as you watch 
cars go by?
    Mr. Friedman. That is an important and very specific 
question, so that is something I would like to get back to you 
on the record, to make sure that I have got the information you 
need.
    Mr. Perry. OK. Are there police standing by that sign, or 
parked by that sign, or anywhere close to the entry of that 
sign, where people might be encouraged, because they see police 
officers there, flashing lights, et cetera?
    Mr. Friedman. Well, there are no flashing lights. What you 
have is a police officer, who is standing near the entrance to 
the road side survey site itself. The sign is further up, and 
that is the very first thing that the driver will see.
    Mr. Perry. And what are the police officer's actions? Does 
he flag--is he waving people in? Is he just standing there? 
What is he doing?
    Mr. Friedman. Well, that is actually at the discretion of 
the police officers. The goal of having the police officers 
there is to ensure safety. And so we defer to them in their 
judgment. In some cases, the police officers choose to be the 
one directing traffic, because they have the training, and they 
are confident, and want to be the one directing the traffic 
safely. In other cases, they don't, and our research team are 
the ones who are directing the traffic into the site.
    Mr. Perry. So I understand checking for the use of alcohol 
and drugs. And if there is that present, that there aren't 
arrests made at the location. But doesn't that put law 
enforcement in a kind of untenable position, if they find 
somebody under the influence of something, that they--you know, 
I guess you are going to take the driver home, or you are going 
to offer something. But isn't the driver also violating the 
law, which at that point the police are in some untenable 
position, because they are duty-bound to act?
    Mr. Friedman. Well, what I can tell you, Congressman Perry, 
is that within the 40 years that this survey has been going on, 
not one survey participant has been arrested. Why? Because we 
have very strict protocols in place, and that works.
    Mr. Perry. I understand that. I am talking about the police 
officers. What position are they being placed in?
    Mr. Friedman. Well, the police officer in these positions 
are there to ensure safety. And this protocol ensures that if 
we come upon an impaired driver, that they are safe. And so we 
are able to ensure that the police officer is able to meet--
there to do their job, and ensure safety, to make sure that----
    Mr. Perry. I don't want to cut you short, but I have got 
some other questions. What I would like you to do, if you 
could, is address the concerns of the citizens that I am 
dealing with regarding the term ``volunteer,'' and how it is 
perceived if the default is to I kind of got to opt out. And 
strictly regarding law enforcement's presence there, and what 
you might be doing as an agency to encourage people to go, but 
not with law enforcement, or to really truly make it volunteer. 
And, regarding the safety enforcement, maybe some other 
alternatives. Like, maybe the fire police or a private 
contractor that says ``safety'' on it, as opposed to a 
uniformed police officer.
    Moving on, Ms. Ferro, I would like to just talk to you a 
little bit about on-board recorders. In the rulemaking planning 
that you are considering, will there be any requirement that 
the device have features which induce always on data 
connectivity and real-time tracking? That might induce that?
    Ms. Ferro. Well, I am hard-pressed to answer to that level 
of specificity, Congressman, because we are in the midst of the 
rulemaking process itself.
    Mr. Perry. Sure.
    Ms. Ferro. But I can tell you that we worked very closely 
before the rulemaking was launched with the technical experts, 
with stakeholders through listening sessions, and the--our 
advisory committee----
    Mr. Perry. So--but you would acknowledge that goes beyond 
the statutory requirement.
    Ms. Ferro. I will say that we have stuck very close to the 
requirements of MAP-21, as to the properties of that electronic 
logging device. And we will have the rule out shortly, so folks 
will have a chance to answer that question more specifically.
    Mr. Perry. So, because it would go beyond the statutory 
requirement, can we get any kind of feeling from you if it will 
specifically state that real-time tracking is not required in 
the rule itself, that verbiage--some type of verbiage to that 
effect?
    Ms. Ferro. Well, again, I can't get to that level of 
specificity. I just want to drive home the point that this is a 
supplemental notice of proposed rulemaking. We will have a 60-
day comment period----
    Mr. Perry. OK, all right.
    Ms. Ferro [continuing]. And really will look forward to 
those comments.
    Mr. Perry. I just want to get a couple other questions in 
here. It is my understanding that most electronic logging--I am 
not a driver--but these devices record time minute-by-minute or 
second-by-second. So, the question would be, what is a driver 
to do when they are close to the location that they are 
supposed to stop, but they are not there yet? Traffic, 
something has happened. Are they supposed to pull over 
immediately, or what is the give-and-take there? What are the 
parameters for the drivers that will be operating with these 
devices?
    Ms. Ferro. Well, today companies have electronic logs on 
their----
    Mr. Perry. Sure.
    Ms. Ferro [continuing]. Vehicles of all types. And their 
guidance to drivers is to adhere to the logging timeframes on 
that--on those devices.
    Mr. Perry. OK, but that is their advice to their drivers. 
This is going to be a Federal rule, it is a force of law. So, 
when I come up within minutes and seconds of my data-logging 
device, and it says I am supposed to be off the road at this 
time, am I supposed to--I am sitting in the middle of the 
Holland Tunnel, and my clock is up. What do I do?
    Ms. Ferro. Well, again, that is the--precisely the kind of 
question and comment that we expect to see during this comment 
period. And we will have a great opportunity to have those 
sorts of discussions.
    Mr. Perry. All right, thank you.
    Ms. Ferro. Thank you.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mrs. Napolitano? I apologize for--we 
were trying to move it up, and----
    Mrs. Napolitano. That is OK. I only got here when nobody 
was here. So I have been waiting through the whole thing. And 
it is great to have the opportunity to pose some questions.
    And, Under Secretary Rogoff and Administrator Nadeau, my 
area is the home of the Corridor of National Significance, 
rail-truck corridor, 100 trains a day, 50,000 trucks through my 
district. And it has a major effect on the roads, on the 
environment, on the congestion, the poor air quality and safety 
hazards. And we really appreciate the commitment over the 4 
years. But does your freight proposal focus on mitigation 
projects, especially air quality and grade separations? And how 
do you ensure those projects are giving a level playing field 
with freight efficiency--playing field with the freight 
efficiency projects? In other words, so that they do--are able 
to work with those.
    And then I have another question, so I would appreciate a 
quick answer.
    Mr. Rogoff. I am going to give you a very quick answer, 
Congresswoman, and that is that I think we will be able to 
spell this out when we actually transmit the bill in April, and 
be able to describe it. But it really is--the notion is to have 
combined decisionmaking with freight stakeholders and State and 
local government, and the State and local government will have 
a say in it.
    Plus, there is a substantial discretionary component to the 
freight program. And the issue of mitigation measures, 
especially those that deal with the particulate matter issues 
and clean air for the children of the community, I think, is 
critical, and would be part of our consideration.
    Mrs. Napolitano. I would appreciate some information when 
you do come to that, because I have some areas that are very 
low-income that are suffering from impact.
    And the second question is to Administrator Nadeau, is the 
comprehensive truck size and weight study. And I understand 
that you are working on a comprehensive truck size and weight 
study required by MAP-21. In the concerns over the study 
process, the data which is being relied upon to draw 
conclusions about safety and infrastructure impacts, there has 
been some criticism of the contractors selected to do the 
study. And you agreed to set up an external peer review to 
study--six of those individuals on the committee have been 
found to have direct ties to the trucking industry, or who had 
publicly advocated for higher size and weight limits. How are 
we to ensure that this is going to be a study that is going to 
draw conclusions that are fair to everybody, and that is not 
predisposed on one side or the other, and might not be skewed?
    And then, it would also go to the prediction that there is 
going to be a 63-percent increase in truck freight by 2040 not 
being factored in. Or that we are not considering the impact 
this has on bridges, and--which are structurally deficient.
    Mr. Nadeau. Thank you, Mrs. Napolitano. Let me begin by 
saying that the Department is working diligently to produce the 
truck size and weight study, as required by MAP-21. And we are 
equally committed to ensuring that it is conducted in a data-
driven, objective, and transparent manner.
    I will first touch on the peer review process. The National 
Academy of Sciences and Transportation Research Board were 
contracted to provide that peer review. By contract, and by 
history and tradition, in the conduct of such a peer review, it 
is objective, as well. They were responsible for selecting the 
team. A number of interests volunteered suggestions for that 
team. We are confident that that process, which has already 
actually been engaged----
    Mrs. Napolitano. How can we be confident of that?
    Mr. Nadeau. I would like to say the results, but that is 
not sufficient, I am sure, with respect to your question. I 
think that the Transportation Research Board and the National 
Academy of Sciences, and their reputation, and our commitment 
to ensure that their role in the process is objective is 
something that I hope will provide you with some assurance that 
they will conduct their responsibilities responsibly.
    Mrs. Napolitano. Will we be able to ensure that--is it 
going to be a report to this committee, to be able to ensure 
that this is being followed, and the transparency process?
    Mr. Nadeau. Well, I think, as you know, the statutory 
deadline for the report itself is November 2014. But we are 
working extremely hard to produce at least elements of the 
study, and as we produce them in a very transparent way, post 
it on the Web site. The work that the individual work groups 
are doing in the execution of the study itself is being posted 
on a regular basis. So you will see the work product from the 
various working groups--and there are five study areas--as the 
work is produced. Extensive public outreach and public----
    Mrs. Napolitano. And I understand all of that, sir. My 
concern is, like in California, they try to go to a tandem 53-
footer, which cannot navigate the on-ramps and off-ramps in our 
freeways. So, for us to be able to be ensuring that this is 
going to be addressed, we want to make sure that we are looking 
at what some of the outcomes are, so that we can address them 
from our States, or at least from the western Governors' 
States' viewpoint, is so needed.
    Mr. Nadeau. We are confident that the expert teams that we 
have assembled can provide you with that objective, data-driven 
analysis.
    Mrs. Napolitano. And the answer to the bridges? You know, 
the truck freight is not being factored in, supposedly, 
according to our information. And then secondly is that the 
study--we are relying on a sample of bridges, but it does not 
include those that are structurally deficient, already provided 
for by this committee. Would you take that into consideration, 
then come back and let us know, please? Because this is 
critical.
    Mr. Nadeau. I was going to suggest--so I am absolutely 
clear on what your question is, and what you are talking about, 
I would suggest that we spend some time together----
    Mrs. Napolitano. Would you please, sir? Thank you very 
much. Thank you, Mr. Chairman, for your----
    Mr. Petri. Thank you. Mr. Ribble?
    Mr. Ribble. Well, good morning. We are getting near the 
end, folks. Hang in there.
    Administrator Ferro, I have got just one comment, something 
to kind of put on your radar screen. And then a question.
    My comment, first, relates to safe work practices for 
female drivers. I have had some female drivers coming in, and 
more and more women are entering the trade of driving trucks. 
They are concerned with the work rules requirement, as it 
relates to finding safe harbor places to rest in the evenings, 
that there are well-known places where they are very safe, and 
others have worse reputations. Sometimes they feel like they 
are forced in a position of having to drive 35, 40, 50 miles 
further than what the--to find a safe place in which to get 
rest. And they are concerned if they can't do that, then they 
are in a rest environment where they cannot rest, because they 
are concerned about personal safety while they are supposed to 
be resting. So I am putting that on your radar screen as 
something to take a look at.
    I want to just ask a quick question about traffic 
enforcement-initiated truck inspections. Last year, the agency 
found that this enforcement activity was highly effective for 
safety, yet the numbers are falling off dramatically. In 2010 
through 2013, those inspections dropped by 39 percent. And so 
far, in this year, 2014, they have dropped by 18 percent. Why 
would a highly effective safety method be reduced?
    Ms. Ferro. Well, I--Congressman, thank you. I agree, and I 
assure you that my agency leadership and employees across the 
country agree that, at the end of the day, it is all about the 
driver. And so, traffic enforcement is an essential component 
of ensuring that we are getting to the safety outcomes we are 
driving towards in commercial vehicle oversight.
    The data that you are citing actually was raised--brought 
to our attention, and reinforces to--at least to me and my team 
that we have had States--we have a grant structure that has 
incentivized States to do more traffic enforcement through 
ticketing aggressive cars and trucks--or ticketing aggressive 
drivers operating around large vehicles. And those data, that 
work, is not counted as traffic enforcement within the normal 
grant program. And so, where some of their work, they are--
inspectors may have been diverted to do some of that on-road 
enforcement work, we wouldn't see it in the numbers. And so, we 
are re-examining both the level of enforcement work, but also, 
most importantly, how they are reporting it.
    Now, augmenting that, even more importantly, is we have 
worked extensively with the International Association of Chiefs 
of Police to augment their ability to carry out driver 
enforcement on commercial vehicles. Just straight speeding, 
unsafe lane changing, none of the complexity of different 
levels of inspection. And IACP has been very energized and 
eager to press forward, because that all of a sudden takes our 
12,000 grant-funded State officers to almost 800,000, because, 
again, I couldn't agree with you more, the traffic enforcement 
is very important.
    Mr. Ribble. Could you keep this committee up to speed, 
then, going forward, on how your decisionmaking process is, as 
it relates to that issue, then?
    Ms. Ferro. I certainly will.
    Mr. Ribble. Thank you. Thank you very much. And with that, 
Mr. Chairman, I yield back.
    Mr. Petri. Thank you. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this hearing. I want to thank the panelists, as well, for being 
here this morning. And my question is for Mr. Nadeau.
    As you are well aware, for several years now Maine has had 
an excellent, real-world experience with the use of heavier 
trucks, 6-axle trucks, that are permitted on both State and 
interstate highways under our 20-year pilot program. The 
program is supported by the Maine Department of Transportation, 
Maine State Troopers, Maine truckers, Maine shippers, as it has 
improved road safety and lowered the shipping cost, while still 
protecting our infrastructure, at the same time. In fact, the 
Maine Department of Transportation engineering analysis found 
that additional bridge costs to accommodate the heavier trucks 
are theoretical, and perhaps even zero.
    This is not theory or projections for some interest groups. 
This is practical, on-the-ground experience that should be very 
informative to the Department of Transportation truck size and 
weight team. We hear a lot about the theory and what is really 
happening out there, real world, is different.
    My question is, can you assure me that the Department of 
Transportation study is giving appropriate weight to the 
practical and real-world experience that we have seen in Maine, 
not theory, in what some of those that might be for or against 
these are using, theoretical examples, not practical 
experience?
    Mr. Nadeau. Well, thank you for the question, Congressman 
Michaud. I think I can, in that specifically what the study 
calls for is comparing impacts in jurisdictions where heavier 
weights and lengths are allowed to those where they are not.
    So, an empirical approach and analysis of this nature, I 
think, will yield that kind of real-world comparison, based on 
real experience on the ground. So I think I can assure you of 
that, sir.
    Mr. Michaud. I appreciate that, because I know a couple of 
years ago--actually, 3 or 4 years ago--when we first initially 
had the weight limit discussion for this committee--as you 
know, in the real world, before I became a Member of Congress, 
that is what I used to do, is actually load tractor trailers 
and box cars. So in some of the testimony we heard at that 
point in time was based on theory, not the practical world. So 
I appreciate that.
    My second question, also for Administrator Nadeau, is that 
when I met with your predecessor in this December, you know, 
the Federal Highway Administration pledged to review the 
standing general and nationwide waivers to determine if they 
were still warranted in the Buy America revision. Can you tell 
me whether the Federal Highway Administration has indeed 
conducted a review of these general waivers, and what specific 
steps the Federal Highway Administration intends to take in 
regard to these nationwide waivers that are currently in 
effect?
    Mr. Nadeau. Be happy to. Thank you for the question, sir. 
We actually since that time--we had initially issued a memo to 
all of our division offices essentially clarifying the 
application of the national waiver requirements. Subsequently, 
we put that out for public comment and received an extensive 
amount of interest in specific waivers and, of course, all the 
national waivers that are included.
    As a result of the interest and the complexity of some of 
those issues, we will issue a notice of public rulemaking on 
the national waiver provisions of Buy America, which, by the 
way, of significant interest to the administration is a broadly 
balanced applicability of Buy America provisions to ensure we 
leverage the economic impact of the investments that the 
taxpayers make in their infrastructure.
    So, that NPRM will provide, I think, the opportunity for 
the entire highway community to evaluate the national waivers 
and their impact on the program, and we are looking forward to 
that exchange with the American public.
    Mr. Michaud. Thank you. And I can appreciate your comment, 
both--how important this is to the administration. However, I 
have seen in other cases where the administration talks--the 
President talks about Buy America as it relates to the Berry 
Amendment, which has been law since 1941, yet the Department of 
Defense is still not complying with the law that requires all 
soldiers be clothed from head to toe with American-made 
clothing. They are getting around that by giving a waiver for 
the athletic footwear.
    So, hopefully, in this particular case, what the 
administration says is what the administration will do. I have 
found in other cases that has not been the case, and we are 
still pushing them to completely comply with the Berry 
Amendment as it relates to DOD. And I know that is not your 
issue, but hopefully we will see a different tack as it relates 
to this Buy America provision.
    So, once again, thank you very much, Mr. Chairman. I see I 
ran out of time. Thank you, Mr. Nadeau.
    Mr. Nadeau. Yes, sir.
    Mr. Petri. Mr. Mullin.
    Mr. Mullin. Thank you. I guess they saved the best for 
last. Is that correct, Mr. Chairman?
    Mr. Petri. No.
    Mr. Mullin. Oh, I am sorry.
    [Laughter.]
    Mr. Mullin. I didn't see you back there. Well, I want to--
Secretary Ferro, you know, we have spent actually quite a bit 
of time--you have actually came to my office and visited with 
me, and I appreciate that. We have talked a couple times on the 
phone. But I still have huge concerns with the hours of 
service. You know, we make a lot of rules here that have 
unintended consequences. And when we have a one-size-fit-all 
approach, it has unintended consequences. And the hours of 
service is having a lot of unintended consequences.
    So I just want to ask you how many hours a week do you 
work? Not at your office, but how many hours a week do you 
work, from the time you get your first email, your first text, 
first phone call in the morning, until your last?
    Ms. Ferro. Quite a few hours.
    Mr. Mullin. I know, but the industry that you have set, and 
that you are regulating, you are regulating their hours. Their 
industry is just as important as yours.
    Ms. Ferro. That is right.
    Mr. Mullin. And you are telling them how many hours they 
have to work, how many hours they have to rest. So how many 
hours do you think you put in a week?
    Ms. Ferro. Well, I will clarify. Again, I work in an 
office, not behind the wheel, so my office is stationary----
    Mr. Mullin. Their office is their truck, and my office used 
to be my truck, too.
    Ms. Ferro. Yes, that is right. Their office is on the 
roadway. So, certainly, I work probably, on average, 60 hours a 
week.
    Mr. Mullin. Does that include your Fridays and Saturday 
phone calls?
    Ms. Ferro. Well, I would say on average----
    Mr. Mullin. Or Saturday or Sunday phone calls?
    Ms. Ferro. I would just say, if we average it out, it is 
probably about 60 hours a week.
    Mr. Mullin. I would probably say, just knowing you, you 
probably actually do a lot more than that. I know, myself, I 
would easily exceed that. And I also know my sleeping habits. I 
also know that I operate just fine off of 5 hours of sleep. I 
actually get a headache at 6 hours. I also know that, when I am 
traveling, there are things that happen.
    I mean, for instance, if you got to travel during these 
storms that we have had, especially this winter, and you get 
stuck at airport, and you don't get to the hotel until 1 a.m. 
or 2 a.m., like happened to us multiple times this year, and 
your first meeting is scheduled for 8 a.m., do you push it back 
because you got to have 8 hours in the berth--or, I am sorry, 
in the hotel room?
    Ms. Ferro. Well, again, I am going to reinforce. The agency 
that I operate, FMCSA, was established to oversee and ensure 
that crashes involving commercial motor vehicles----
    Mr. Mullin. I get that. It is safety.
    Ms. Ferro. And we take all the----
    Mr. Mullin. I get that. So you look at safety. But what I 
am saying is you are treating an industry like it is less 
important than the work that you have to get done. And when you 
have start times, and says that you have 14 hours to get 10 to 
11 hours of driving done, period, and yet you are going through 
Atlanta and a storm happens, and you got to stop, then we have 
unintended consequences because they run out of time. And if 
they don't get some place to get in a berth, in the sleeper, 
the berth, they don't get someplace to get into the sleeper, 
then they get fined, serious fined. And then that can affect 
their rating. And then when they return, that can affect their 
ability to carry for certain people. But yet it was beyond 
their control, because they got stuck in the traffic jam, and 
they can't get their hours done.
    And so, what we end up doing is having trucks pull off on 
the shoulders and off-ramps, and they sit there. And then they 
run out of time. And you know that is true. And there is no 
safe zones for them to go to. So now the trucker, his safety is 
in concern, because he is nowhere in a protected area, and 
anybody can drive up. They know that that guy is there, and 
they know that they can rob his goods and rob him, too, and he 
can't move. He has to stop there, or he is going to get fined, 
and his rating is going to go down. Unintended consequences.
    Or, we are in the situation that they have got to pull over 
because they are out of time and the storm is right on their 
tailgate, it is right behind them. And if they can get through 
this period, this dry period--because they know they can push 
themselves. They know where they are at, and when they are 
tired, and they are not. They are professionals. You are a 
professional. I am a professional. We know ourselves.
    And the industry has done a great job of regulating 
themselves. But now it is not good enough. Instead, we have got 
to have somebody come in and tell them, ``You can only work 36 
hours at a time.'' ``You cannot start your truck between 1 a.m. 
and 5 a.m., at least for two periods.'' 1 a.m. to 5 a.m.? 
Sometimes that is the best times to drive, especially if we 
want to talk about safety, because there is less cars on the 
road. But we are regulating them. And, ma'am, no one regulates 
how many hours you can work.
    Ms. Ferro. That--Congressman, what you just described is 
absolutely why this is a very difficult industry to be part of, 
and why we have every reason to be grateful for the commercial 
drivers who are professional, who are--put safety first. And 
the hours----
    Mr. Mullin. But we are doing a one-size-fits-all approach.
    Ms. Ferro. The hours----
    Mr. Mullin. And this is already having unintended 
consequences.
    Ms. Ferro. Right.
    Mr. Mullin. And yet you don't want to hear anything about 
it. We tried to challenge this.
    Ms. Ferro. Yes, I listen all the time. I like to hear a lot 
about----
    Mr. Mullin. But what are we doing about it? Nothing. 
Instead, the rule went ahead and went into effect. And I think 
it is quite hypocritical that you are working outside the 
parameters and the hours that you are telling the truckers that 
they can't work.
    Why don't you do this? Why don't you do a study. You work 
the exact same hours for 1 month that you are regulating these 
drivers that say they can work. You go off the same, exact 
timeframe that they go off of. Don't answer your phone, don't 
take an email, don't take a phone call during the same periods 
of time. You work only the hours that they are allowed to 
work----
    Ms. Ferro. Now, Congressman, again----
    Mr. Mullin [continuing]. And see if you can still do your 
job.
    Ms. Ferro. Congressman, we are talking about an industry 
whose office is behind the wheel, on the highways, with your 
family, every family member----
    Mr. Mullin. And we are talking about me and my drivers.
    Ms. Ferro. I understand.
    Mr. Mullin. We are talking about an industry that has done 
a phenomenal job----
    Ms. Ferro. Yes, and drivers----
    Mr. Mullin. A phenomenal job since 1978, a phenomenal job--
--
    Ms. Ferro. And under this new rule--right.
    Mr. Mullin [continuing]. Of bringing it down before you and 
FMCSA----
    Ms. Ferro. I see.
    Mr. Mullin [continuing]. Got involved.
    Ms. Ferro. But the hours-of-service rule has been out there 
for decades. The recent changes----
    Mr. Mullin. But there was flexibility in it.
    Ms. Ferro. The recent changes retained a driver's ability 
to run 70 hours a week. Seventy hours a week. Sixty hours a 
week, without needing a restart. So, again, there are 
significant----
    Mr. Mullin. And, once again, how many hours do you work a 
week?
    Ms. Ferro. There are significant operating opportunities 
within this rule. And, really, what you have described is why 
drivers should get paid more, and be treated as well as----
    Mr. Mullin. I do agree with that.
    Ms. Ferro. Yes.
    Mr. Mullin. But, ma'am, a one-size-fits-all doesn't 
approach, and yet you don't live by the same rules you are 
requiring this industry to live under. And every industry is 
vitally important. Every profession is just as important as 
another profession. If there was a little bit of flexibility, 
maybe some human factors in play, maybe then we could talk. But 
a one-size-to-fit-all approach does not fit an entire industry. 
Why don't we focus on those few that are breaking the law, 
instead of punishing everybody?
    Ms. Ferro. Well, and that is at the heart of CSA, so thank 
you for that closing point.
    Mr. Mullin. Thank you. Mr. Mica?
    Mr. Mica. Thank you. We did save the best for last. So just 
want to clarify that for the record.
    Let me go through some of this. First of all, when we 
worked on MAP-21 our intent was to try to consolidate or 
eliminate some programs. A report I have here from the staff 
says we consolidated or eliminated 70 DOT programs. I had asked 
earlier--I guess last year--how many positions had been 
eliminated or cut as a result of the consolidation or 
elimination. Mr. Rogoff, any idea?
    Mr. Rogoff. Mr. Mica, I don't think we reduced--net, as a 
Department, I don't believe we did reduce positions as a result 
of MAP-21.
    Mr. Mica. See, I think that is horrible, terrible, bad. 
Staff, get the number of FTEs they had last year, this year. 
That wasn't the intent. The intent was to honestly consolidate, 
eliminate some positions. Then also devolve to the States where 
we can--as many projects--while we are at that now, are you 
going to oversee the TIGER--this TIGER round?
    Mr. Rogoff. The TIGER grant is run out of the office of 
policy, which is under the Under Secretary's office. Yes, sir.
    Mr. Mica. That is yours? OK. Was it $700 million in this--
--
    Mr. Rogoff. $600 million, sir.
    Mr. Mica. $600 million? OK. What is the date for those?
    Mr. Rogoff. We just put out the notice, and I believe the 
application date is either--deadline is either April 24th or 
28th.
    Mr. Mica. So we have had some bad processing, and not 
transparency. I hope that will be eliminated. So I want to ask 
the committee staff also, let's monitor how that is being done.
    Mr. Rogoff. Sure, we have----
    Mr. Mica. Does all that money have to be out by October?
    Mr. Rogoff. Our goal is to get the grants out in that 
timeframe.
    Mr. Mica. OK.
    Mr. Rogoff. Does it have to be out? Not as a matter of law. 
It does not----
    Mr. Mica. Try not to screw my State this time, too, like 
they did in the first round. I appreciate that. I know you got 
better as things went on. I know, personally, you would----
    Mr. Rogoff. We welcome all and every application from 
Florida----
    Mr. Mica. I don't know of any just now, I just meant in the 
general drafting.
    But, let's see. So we want to check on the number of 
positions. Guys, be witness to this. Nothing gets eliminated or 
cut in any--OK.
    Project delivery and streamlining. That was also supposed 
to reduce some of the Federal involvement. Can you--anybody 
there, anything in NEPA? Do you know of any reduction in 
staffing----
    Mr. Rogoff. Well, I think most of the NEPA streamlining, 
sir, takes the form of potentially less work on the part of 
project sponsors and consultants.
    Mr. Mica. But it also would be some on----
    Mr. Rogoff. It could, over time, but----
    Mr. Mica. But there is no net----
    Mr. Rogoff. Those provisions, those would still be----
    Mr. Mica. No net efficiency, then, out of DOT.
    Mr. Rogoff. I think we are making a lot of our processes 
more efficient.
    Mr. Mica. Oh, OK. Here is what I would like you to do----
    Mr. Rogoff. We also got new requirements under MAP-21 to--
--
    Mr. Mica. Maybe for the record--don't mean to interrupt, 
but maybe for the record, just to substantiate what you are 
saying, is how many more you have processed. Can you tell us? 
Or the volumes, maybe numbers, process, money amounts, 
something to substantiate that actually the streamlining is 
taking place?
    Mr. Rogoff. I think that would be a good one to take back 
for the record, Mr. Mica.
    Mr. Mica. Could you do that?
    Mr. Rogoff. It is a data call, really----
    Mr. Mica. I just wanted to substantiate what is going on, 
and what our intent was.
    OK. Got a couple more questions here. TIFIA. How much was 
the total request for TIFIA that we had coming in? I know we--
about----
    Mr. Rogoff. We are doing--we are proposing $1 billion a 
year for 4 years, sir.
    Mr. Mica. That was what we increased it to----
    Mr. Rogoff. You, I think, did 750 the first year, and a----
    Mr. Mica. OK, the first year, and then it went up.
    Mr. Rogoff. Yes, sir.
    Mr. Mica. Because we had that little problem of a balance 
at the beginning, so we knocked it down the first year. But 
what was the total number of requests you had for the 750 or 
the billion, whatever you got?
    Mr. Rogoff. I--we have got a great many requests.
    Mr. Mica. I mean was it----
    Mr. Rogoff. I don't have a hard number, but it is well in 
the tens of billions of--well in excess of any----
    Mr. Mica. Provide that to us. Because, see, I heard----
    Mr. Rogoff. That is easy.
    Mr. Mica [continuing]. And the administration talking about 
additional. And you leverage those dollars, it is a big deal. 
But I know there were a hell of a lot more requests than we 
funded.
    Mr. Rogoff. There are. It is light years from what it used 
to be.
    Mr. Mica. And that is the cornerstone of any new bill, a 
huge number of requests. Right?
    Mr. Rogoff. Yes, sir.
    Mr. Mica. OK. So we need to look at that. That should be 
our goal, is to try to get that up there for----
    Mr. Rogoff. And it is not just requests. There are larger 
projects, too.
    Mr. Mica. Staff, if you can give me that, too. And work 
with you. I mean that works. And then we are going to do--if 
they get to rail, we could do RIF, which would also provide a 
lot of capacity for financing, if you don't have the bucks.
    OK, let's see. Two things I have got remaining. Hours of 
service, I heard that little discussion. Last hearing I had 
talked about one of the truckers who came up, a trucking 
official said there is something that they use to see if troops 
or others are fatigued. We have that technology. He says all 
the stuff they are doing is crap. He says it is a waste of 
time. The records can be--all this stuff is--can be done. But 
he said you can get this equipment the military has, put it on 
a driver, and tell if they are fatigued. Have you looked in--
anyone looked into that?
    Ms. Ferro. We have been working through the Small Business 
Innovative Research program.
    Mr. Mica. Have you seen that? Has anyone seen it?
    Ms. Ferro. I have seen----
    Mr. Mica. Could you report back to me, personally, Ms. 
Ferro?
    Ms. Ferro. Yes, I will. Yes, I will.
    Mr. Mica. Because I was told that, I asked about it last 
year. And I think we are playing a bunch of games, but I am 
telling you those truckers just got me by the collar and said 
the technology is there, but we are in another era. And I would 
like to see something on that.
    Ms. Ferro. OK.
    Mr. Mica. Then the final thing is deaths. Who works in 
death on Transportation? Rogoff, you got the--or Mr. Nadeau? 
You have the numbers from last year, how many people were 
killed in accidents?
    Mr. Nadeau. Maybe--Acting Administrator Friedman may--
probably has the roadway fatalities.
    Mr. Mica. How many, Mr. Friedman?
    Mr. Friedman. There were over 30,000 lives lost on our 
highways last year.
    Mr. Mica. But that is over. Now, we went--we were in the 
40s, we came down to the 30s, mostly----
    Mr. Friedman. It is about 33,000.
    Mr. Mica. 33,000. So where--and then it went up a little 
bit. Are we back? Did we have a reduction over the previous 
year, or did we have an increase?
    Mr. Friedman. So, we have gotten to historic lows. And 
then, in 2012, we saw an increase. The early data from 2013 is 
showing that we have gone back down----
    Mr. Mica. Back down.
    Mr. Friedman [continuing]. From 2012. But we have got to 
wait for that data to be finalized to be sure. But we have seen 
a decrease, according to the early data.
    Mr. Mica. And have we done anything more on--one of the 
things is just like the--separating the traffic with barriers 
in between on the interstate. I had asked the question, too, 
how many miles we have of that separation. Anybody know?
    Mr. Nadeau. Cable median barriers?
    Mr. Mica. Yes, any kind of barrier, the cheapest thing to 
keep them going across, killing people.
    Mr. Nadeau. That would be cable median barriers. And in 
many, many States across the country----
    Mr. Mica. Can you give me the number of miles----
    Mr. Nadeau. My camp would be happy to get back to you 
with----
    Mr. Mica. Give me the number of miles we have done, and 
what we have got to do. OK?
    Mr. Nadeau. Yes, sir.
    Mr. Mica. I think that is worthwhile. Of course, the 
distracted driver is still a huge problem.
    Well, that is all for now. But I will--how long you going 
to leave the thing open, Mr. Chairman?
    Mr. Petri. Fifteen days.
    Mr. Mica. OK. I might have a couple I want to submit. I 
look forward to Ferro getting me back on that, some of the 
other information I requested. Don't forget, Florida, F-l-o-r-
i-d-a, Mr. Rogoff. Six hundred million dollars, we will take 
even a small share. Still high unemployment.
    Thank you, bye.
    Mr. Rogoff. Good to see you again, Mr. Chair.
    Mr. Petri. I ask unanimous consent the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent the record remain open for 15 
days for additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    [No response.]
    Mr. Petri. Without objection, so ordered, and this hearing 
stands adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
